<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2013

                              ----------                              


                       WEDNESDAY, MARCH 14, 2012

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Daniel K. Inouye (chairman) 
presiding.
    Present: Senators Inouye, Feinstein, Johnson, Cochran, 
Hutchison, Alexander, Murkowski, and Coats.

                         DEPARTMENT OF DEFENSE

                      Department of the Air Force

                        Office of the Secretary

STATEMENT OF HON. MICHAEL B. DONLEY, SECRETARY


             opening statement of chairman daniel k. inouye


    Chairman Inouye. The subcommittee meets this morning to 
receive testimony on the fiscal year 2013 budget request for 
the United States Air Force. I am pleased to welcome the 
Secretary of the Air Force, Michael B. Donley, and the Chief of 
Staff of the Air Force, Norton Schwartz. Gentlemen, thank you 
for being here with us to today and for sharing your 
perspectives.
    The Air Force's fiscal year 2013 base budget request is 
$110 billion, about $5 billion less than last year's enacted 
base budget. The Air Force is also requesting $12 billion for 
overseas contingency operations, which is a decrease of $2 
billion from last year's enacted amount.
    To aid in the Governmentwide deficit reduction efforts, the 
Air Force laid in significant fiscal reductions and realigned 
resources to correspond with newly developed strategic 
guidance. Obviously taking risk in certain mission areas was 
unavoidable, so in the fiscal year 2013 budget the Air Force 
requests divestiture of aircraft, decreases in end-strength, 
and delays to some modernization efforts.
    In fiscal year 2013 alone, the Air Force plans to retire 
227 aircraft by reducing fighter squadrons, less capable 
mobility aircraft, and older tanker refueling aircraft. 
Additionally, the Air Force proposes to retire some of its 
intelligence, surveillance, and reconnaissance aircraft to 
include the Global Hawk Block 30 unmanned aircraft and an 
economically unrepairable Joint Surveillance Target Attack 
Radar System aircraft. I know there is great consternation 
across the Senate regarding loss of mission assets and, in 
particular, changes to the Guard and Reserve forces. I hope to 
hear from you on how you plan to mitigate these losses with new 
mission assets to ensure our Guard and Reserve forces maintain 
high-readiness levels.
    In line with these aircraft reductions are decreases in 
manpower. The Air Force will reduce to the smallest force since 
its establishment in 1947. By the end of fiscal year 2013, the 
Air Force will reduce military forces to 501,000. I look 
forward to hearing how you plan to achieve this end-strength 
reduction without causing undue hardship on those airmen who 
have served our country so dutifully.
    In the fiscal year 2013 request, the Air Force protects 
high-priority modernization programs such as the KC-46 
refueling tanker, the Joint Strike Fighter, the Long Range 
Bomber, and critical space assets. Unfortunately, there are 
many other modernization programs that you propose to terminate 
or restructure. I hope you will explain how you determined the 
appropriate risk levels for these programs.
    Gentlemen, there is no doubt that we are entering another 
period of decreased defense spending similar to what we 
experienced at the end of previous wars. I look to your 
expertise and vision to ensure our Air Force remains the most 
effective Air Force in the world. I believe this is the fourth 
time the two of you have testified together in front of this 
subcommittee. I sincerely thank you for your service to our 
Nation and for your continued unity and professionalism during 
this difficult fiscal environment. We are also deeply grateful 
for the dedication and sacrifices made daily by the men and 
women in our Air Force. I look forward to working with you to 
ensure that the fiscal year 2013 appropriations bill reflects 
the most optimal balance between resources and risk to best 
meet the needs of the United States Air Force.
    Your full statements will be included in the record. I now 
turn to the Vice Chairman, Senator Cochran, for his opening 
statement.


                   statement of senator thad cochran


    Senator Cochran. Mr. Chairman, I join you with pleasure in 
welcoming the Secretary and the Chairman to the hearing and all 
of you who are attending this very important review of the 
budget request for the Department of the Air Force for the next 
fiscal year.
    We thank you for your service to the country and your 
dedication to your role in helping protect the security 
interests of our great country.
    Thank you.
    Chairman Inouye. Thank you very much. And may I now call 
upon the Secretary, Michael Donley.
    Mr. Donley. Mr. Chairman, Vice Chairman Cochran, members of 
the subcommittee, it is a pleasure to be here today 
representing more than 690,000 Active Duty, Reserve, Guard, and 
civilian airmen. I'm also honored to be here today with my 
teammate, who is now the dean of the Joint Chiefs of Staff and 
certainly one of America's finest public servants, General 
Norty Schwartz.
    General Schwartz and I are joined today by Lieutenant 
General Charlie Stenner, the Chief of the Air Force Reserve, 
and Lieutenant General Bud Wyatt, who is the Director of the 
Air National Guard.
    For fiscal year 2013, the U.S. Air Force is requesting 
$110.1 billion in our baseline budget and $11.5 billion in the 
overseas contingency operations supplemental appropriation to 
support our work. This budget request represents the 
culmination of many hard decisions taken to align our fiscal 
year 2013 budget submission with the new strategic guidance and 
with the cuts required by the Budget Control Act over the next 
10 years.
    Finding the proper balance between force structure 
readiness and modernization is our guiding principle. In short, 
we determined that the Air Force's best course of action is to 
trade size for quality. We will become smaller in order to 
protect a high-quality and ready force, one that will continue 
to modernize and grow more capable in the future.
    The capabilities resident in the Air Force missions set are 
fundamental to the priorities outlined in the new strategic 
guidance. And in assessing how to adjust Air Force programs and 
budgets in the future, we've taken care to protect the 
distinctive capabilities we bring to the table--control of air, 
space, and cyberspace; global intelligence, surveillance, and 
reconnaissance (ISR); rapid global mobility; and global 
strike--all enabled by effective command and control.
    The Air Force and our joint interagency and coalition 
teammates and partners rely on these capabilities, and though 
we will be smaller, we intend to be a superb force at any size, 
maintaining the agility and flexibility that is inherent in our 
air power capabilities, and ready to engage a full range of 
contingencies and threats.
    This budget protects the Air Force's top priorities. We 
protect the size of the bomber force. We are ramping up our 
remotely piloted aircraft force to a total of 65 combat air 
patrols with the ability to surge to 85. We protect our special 
operations forces' capabilities, largely protect our space 
programs, and protect our cyber capabilities.
    But, as we get smaller, it is not possible to protect 
everything. Our proposed force structure changes include the 
reduction of 286 aircraft over the future year's defense plan 
(FYDP), including 123 fighters, 133 mobility aircraft, and 30 
ISR platforms.
    Many of these changes correspond to adjustments in the 
overall size of the Armed Forces, especially the Army and 
Marine Corps ground forces, which is the case for the proposed 
reduction in A-10s.
    Our smaller force structure has also led us to favor 
divesting smaller niche fleets, such as the C-27J, and 
emphasizing multirole capabilities that will provide 
operational flexibility across the spectrum of conflict 
demonstrated by our C-130s and by our choices in fighter force 
structure, which include a smaller A-10 fleet and plans for the 
F-16 service life extension.
    We also emphasize common configurations, which can be seen 
in adjustments to the C-5 fleet and C-17 fleet and in ongoing 
efforts to seek common configuration within the F-22 and F-15C 
fleets.
    Because force structure changes have a ripple effect on 
manpower needs, our budget proposal calls for a reduction of 
9,900 Air Force military personnel. By component, this amounts 
to reductions of 3,900 in Active Duty, 5,100 in Air National 
Guard, and 900 Air Force Reserve personnel.
    Fighter mobility and other force structure changes have 
been strategy driven, based on change requirements, and 
consistent with that strategy, especially where Air National 
Guard units are affected. We've proposed to re-mission units 
where feasible. We've carefully balanced our Active and Reserve 
component changes to make sure that we can meet the demanding 
operational tempos, including both surge and rotational 
requirements that are part of the current and projected 
strategic environment.
    As our force gets smaller, all of our components get 
smaller together and will become even more closely integrated. 
We remain fully committed to our total force capability and 
have proposed several initiatives to strengthen integration of 
effort, including increasing the number of active Reserve 
component associations from 100 to 115 units.
    Our intention is to protect readiness at any level, because 
if we're going to be smaller, we have to be prepared. To that 
end, we put funds in critical areas such as flying hours and 
weapon systems sustainment. We also support the Air National 
Guard readiness reset, which balances manpower across the 
States from lower-demand units to new high-demand ISR missions 
and increases readiness in 39 units. We're committed to 
ensuring that our military forces do not go hollow, and 
readiness bears close watching as we move forward.
    Modernization, Mr. Chairman, is our most significant 
concern, especially as our fleets age and new technologies 
drive new investment needs. In this year's budget proposal, we 
slow modernization as we protect programs that are critical to 
future capabilities. We also restructure or terminate some 
major programs to protect key priorities.
    Protected modernization priorities include the long-range 
strike bomber, the new KC-46 refueling tanker, and key space 
programs, such as the space-based infrared and extremely high-
frequency satellites, follow-on global positioning system 
capabilities, and advanced ISR.
    We remain fully committed to the F-35 Joint Strike Fighter, 
which is the future of the fighter force, but we reduce the 
rate of procurement for a few years, because in our judgment, 
Lockheed Martin is not ready to ramp up to full-rate 
production. Due to recent delays in the F-35 program, we also 
proceed with an F-16 service life extension program.
    Among the programs slated for termination are the Global 
Hawk RQ-4 Block 30 aircraft, because, among other reasons, we 
couldn't justify the cost to improve the Block 30 sensors to 
achieve capability that already exists in the U-2, and the 
Defense Weather Satellite System, a termination initiated by 
the Congress, but one we can accept for now, because that 
program is early to need.
    As noted earlier, we decided to divest the C-27J, but we 
have a good alternative to this aircraft, with the multirole 
capable C-130, which has demonstrated its ability to provide 
the direct support mission in Iraq and Afghanistan. We remain 
committed to providing this support to the Army.
    In other cases, we eliminated programs that were judged to 
be nonessential in the current budget environment, such as the 
light mobility aircraft and the light attack and armed 
reconnaissance aircraft. Through more disciplined use of 
resources, the Air Force continues to ring savings out of 
overhead, squeeze discretionary spending, and find more 
efficient ways of doing business.
    In fiscal year 2012, we committed to $33.3 billion in 
efficiencies across the FYDP. In this year's budget, we 
identified about $3.4 billion in efficiencies and another $3.2 
billion in programmatic adjustments to add on top of that 
original $33.3 billion.
    In keeping with our enduring obligation to take care of our 
people, we will keep faith with airmen and their families. 
Doing right by our servicemembers is key to our ability to 
recruit and to retain a high-quality force. Nevertheless, the 
impact of increasing personnel costs continues to be a serious 
concern. Therefore, we support the military compensation 
program reforms in the President's budget, which include a 
modest pay raise, proposals to control healthcare cost growth, 
and calls for a commission to recommend reforms in retired pay. 
We must continue to seek and develop reforms to ensure the 
long-term sustainability of the benefits our men and women in 
uniform have earned.
    Mr. Chairman, identifying $487 billion in Defense cuts to 
comply with the current requirements of the Budget Control Act 
has been difficult. Our Air Force will get smaller, but we are 
confident we can build and sustain a quality force that is 
ready for the contingencies ahead and will improve in 
capability over time.
    However, further cuts, through sequestration or other 
means, will put at risk our ability to execute the new 
strategy. To get this far, we made tough decisions to align, 
structure, and balance our forces in a way that can meet the 
new strategic guidance. If substantially more reductions are 
imposed on Department of Defense (DOD), we will have to revisit 
the new strategy. We cannot afford the risk of a hollow force.


                           prepared statement


    General Schwartz and I feel deeply that our leadership team 
has inherited the finest Air Force in the world. It is our 
obligation to keep it that way, so that our Joint and coalition 
partners know they can count on the United States Air Force to 
deliver the capabilities that we need to meet the security 
challenges ahead, and so that our future airmen remain 
confident, as we are today, that they are serving in the 
world's finest Air Force. Mr. Chairman, that is our obligation 
going forward, and we are going to meet that obligation.
    We certainly remain grateful for the continued support and 
service of this subcommittee, and we look forward to discussing 
our proposed budget.
    [The statement follows:]
         Prepared Statement of the Honorable Michael B. Donley
                              introduction
    Since the first clash of battle, warriors have relied on breaking 
through the lines to achieve victory. However, once the airplane was 
used over the battlefields of World War I, the battle itself was 
forever revolutionized. In the 65 years since the establishment of the 
United States Air Force as a separate service, its technological, 
strategic, and tactical innovations have been elemental in shaping the 
way the United States engages in war, deters aggression, and maintains 
peace. Because America's airmen characteristically view defense 
challenges differently, our Air Force has pioneered advancements that 
have been essential in ensuring our Nation's security while reducing 
the overall casualty counts inflicted by war. As the Department of 
Defense (DOD) faces fiscal pressures and an evolving strategic 
environment, America will continue to depend on the Air Force to 
contribute innovative strategies and systems to conduct our most 
important military missions.
    During the past decade, the United States has engaged in a 
prolonged war aimed at disrupting, dismantling, and defeating al Qaeda 
and its network. A major part of this effort involved long-term and 
large-scale presence on the ground. The withdrawal of combat forces 
from Iraq and the drawdown in Afghanistan signal the beginning of a new 
chapter for America in which we will rely more heavily on airpower to 
complement innovative, lower-cost, lighter footprint approaches around 
the world. As the Nation sustains its global presence with a renewed 
emphasis on the Asia-Pacific region, in addition to continued focus on 
the Middle East, we must maintain the best military in the world--a 
force capable of deterring conflict, a force capable of projecting 
power, and a force capable of winning wars. We will preserve the 
capability and expertise in irregular warfare that we developed over 
the past decade, and we will invest in fielding appropriate amounts of 
new and existing military capabilities in order to meet the national 
security challenges of today and the future.
    Despite new challenges and fiscal stress, America is and will 
unquestionably remain the global leader. The strategic choices embodied 
in the proposed fiscal year 2013 budget reflect 21st century defense 
priorities and will enable your Air Force to play a critical role in 
sustaining that leadership. As the DOD's recently released strategic 
guidance articulates, the Joint Force of the future must be smaller and 
leaner but agile, flexible, ready, and technologically advanced. The 
Air Force will leverage the innovative ability and technological acumen 
of its airmen as we conduct the military missions that protect our core 
national interests:
  --defeating al Qaeda and its affiliates and succeeding in current 
        conflicts;
  --deterring and defeating aggression, including those seeking to deny 
        our power projection;
  --countering weapons of mass destruction;
  --operating effectively in cyberspace and across all domains;
  --maintaining a safe and effective nuclear deterrent; and
  --protecting the homeland.
    Air Force contributions to Total Joint Force effectiveness make us 
indispensable in carrying out these missions and overcoming existing 
and emerging threats in this strategic environment.
                         strategic environment
    After 10 years of sustained large-scale overseas operations, major 
changes in the strategic environment required a reshaping of defense 
strategy and priorities. Over the last several months, the Air Force, 
together with our joint partners, has reassessed our future military 
strategy and posture to determine how the Air Force will best 
contribute to achieving U.S. security objectives, including freedom of 
action in the global commons.
    The major factors and trends of the strategic environment 
identified in the 2010 Quadrennial Defense Review (QDR) continue to 
affect the security environment and inform its trajectory. The rise of 
new powers, the growing influence of nonstate actors, the proliferation 
of weapons of mass destruction (WMD), the proliferation of conventional 
arms, and the transfer of other destructive enabling technologies are 
all trends that still require focused attention when considering how 
the Air Force will execute America's national security strategy.
    Since the release of the QDR, however, we have witnessed events 
that further inform our strategy. The Arab Awakening in the Middle East 
and North Africa has brought about regime changes in some nations in 
the region and challenged the stability and security of others. The 
global economic crisis has made some nations reluctant to support 
international cooperative military efforts as they have shifted their 
focus towards domestic issues. The economic crisis continues to 
contribute to the economic and political shift toward the Asia-Pacific 
region, although we will continue to place a premium on U.S. and allied 
military presence in--and support for--partner nations in and around 
the Middle East. The demise of Osama bin Laden and other senior al 
Qaeda leaders has led to deterioration in the organization's leadership 
and impaired its strategic coherence, although the threat of extremism 
remains. We are also transitioning out of the post-cold war world where 
our military could easily gain access to the battlefield and operate 
major systems unimpeded. Today, adversaries are developing ways to 
prevent our access to the battlefield and deny our freedom of action 
once there.
    As a result of these factors, DOD undertook a comprehensive 
strategic review and recently released new strategic guidance, 
``Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense''. The new guidance notes the importance of recalibrating Joint 
Force capabilities and investments to succeed in the following key 
military missions:
  --counterterrorism and irregular warfare;
  --deter and defeat aggression;
  --project power despite anti-access/area denial (A2/AD) challenges;
  --counter weapons of mass destruction;
  --operate effectively in cyberspace and space;
  --maintain a secure and effective nuclear deterrent;
  --defend the homeland and provide support to civil authorities;
  --provide a stabilizing presence;
  --conduct stability and counterinsurgency operations; and
  --conduct humanitarian, disaster relief, and other operations.
    In determining development of the force required to meet these 
missions, the Secretary of Defense has directed that we maintain a 
broad portfolio of capabilities that, in the aggregate, offer 
versatility across this range of missions. Other factors that are 
important to the implementation of the new strategy include 
understanding which investments must be made now and those that can be 
deferred, maintaining a ready and capable force, reducing ``the cost of 
doing business'', examining how the strategy will influence existing 
campaign and contingency plans so that more limited resources are 
better tuned to their requirements, determining the proper Active and 
Reserve component mix, retaining and building on key advances in 
networked warfare on which the Joint Force has become truly 
interdependent, and maintaining the industrial base and investment in 
promising science and technology.
    Airpower--the ability to project military power or influence 
through the control and exploitation of air, space, and cyberspace to 
achieve strategic, operational, or tactical objectives--has been a 
necessary component of successful U.S. military operations for many 
decades, and a reasonable assessment of the strategic environment 
suggests an even greater role for those capabilities. Since the end of 
the cold war, the Air Force's contributions to national security have 
evolved with the times. We have become not only more effective, but 
also increasingly intertwined with the successful operation of the 
Joint Force. We have now reached a point where no other service 
operates independently of the Air Force; we are a necessary catalyst 
for effective U.S. and Coalition military operations. As we realign our 
resources to support the new strategic guidance, the capabilities that 
underpin these contributions on which the Joint Force depends will be 
protected.
           realignment to the new defense strategic guidance
    The Air Force has made the hard choices to closely align with the 
new strategic guidance by trading size for quality. We will be a 
smaller, but superb, force that maintains the agility, flexibility, and 
readiness to engage a full range of contingencies and threats.
New Concepts
    One way in which the Air Force is posturing itself for the future 
in light of the strategic guidance is through our pursuit of the Air-
Sea Battle (ASB) concept in partnership with our sister services. The 
rise of near peer capabilities--such as fifth-generation fighters, air 
defense systems, and ballistic missiles--evince emerging A2/AD threats. 
The ASB concept will guide the services as they work together to 
maintain a continued U.S. advantage against the global proliferation of 
advanced military technologies and A2/AD capabilities. ASB will 
leverage military and technological capabilities and is guiding us to 
develop a more permanent and better-institutionalized relationship 
between the Military Departments that will ultimately shape our service 
organizations, inform our operational concepts, and guide our materiel 
acquisitions.
Enduring Air Force Contributions
    The Air Force will also continue to bring four enduring and 
distinctive contributions to the Nation's military portfolio to support 
the new strategic guidance:
  --air and space control;
  --global intelligence, surveillance, and reconnaissance (ISR);
  --global mobility; and
  --global strike.
    These four core contributions--plus our ability to command and 
control air, space, and cyberspace systems--will sustain our Nation's 
military advantage as the Joint Force becomes smaller and as we face 
emerging A2/AD threats.
            Air and Space Control
    From the World War II Pacific island-hopping campaign to the 
success of liberation forces in Libya, control of the air has been and 
remains an essential precondition for successful land and maritime 
operations. Today, control of the air and space, along with assured 
access to cyberspace, allows U.S. and Coalition forces to take 
advantage of unique capabilities in mobility, strike, and ISR and 
permits surface forces freedom of action without the threat of 
adversarial attack from above. Whether friendly naval forces are 
helping to secure vital lines of communication and transit, marines are 
conducting amphibious operations, special operations forces are 
executing counterterrorism missions, or ground forces are engaged in 
combined-arms maneuvers, these operations all fundamentally depend on 
the Air Force to provide mission-essential control of air and space. In 
the coming decade, our ability to assert control in all domains will be 
increasingly at risk as sophisticated military technology proliferates. 
The new strategic guidance demands that we forge ahead and maintain the 
air and space power advantages that will enable our entire Joint Force 
to deter and defeat aggression, operate effectively in space and 
cyberspace, defend the homeland, and conduct stability operations.
            Global ISR
    Combat experience over the last decade has shown how important ISR 
capabilities are to the counterterrorism and irregular warfare missions 
and has also made it increasingly clear that these capabilities will be 
required in contested environments in future conflicts and as we take 
an active approach to countering extremist threats. Through a mix of 
aircraft and satellite sensors and corresponding architecture for 
exploitation and dissemination, Air Force ISR affords U.S. leaders an 
unparalleled decisionmaking advantage on which commanders rely--from 
supporting national strategic decisionmaking to successful outcomes in 
life-and-death tactical situations. Moreover, airmen provide expert 
processing and exploitation of staggering volumes of raw data and 
timely dissemination of usable intelligence. In the past 10 years, Air 
Force ISR contributions have been ascendant, particularly from our 
space-enabled remotely piloted systems. But power projection in the 
future strategic environment will require extending today's ISR 
capability into contested battle spaces. This demands significant and 
sustained attention to modernization of our ISR capabilities.
            Global Mobility
    The capability to get friendly forces to the fight and to extend 
the range of airborne strike platforms is a unique Air Force 
contribution that not only enhances joint effectiveness, but also 
embodies the Nation's global reach and power. The military's ability to 
deter and defeat aggression, project power, provide a stabilizing 
presence, conduct stability operations, and conduct humanitarian and 
other relief operations depends on the airlift and in-flight aerial 
refueling that the Air Force provides. We ensure that joint and 
coalition assets get to the fight and remain in the fight, posing a 
potent threat to adversaries and a persuasive presence to allies. Our 
airlift fleet transports massive amounts of humanitarian-relief 
supplies and wartime materiel to distant locations around the world in 
impressively short-time periods. Furthermore, in-flight aerial 
refueling is the linchpin to power projection at intercontinental 
distances. Global mobility also provides for persistent pressure and 
over-watch once we arrive, as demonstrated last year in the skies over 
Libya.
            Global Strike
    Finally, the Air Force's ability to conduct global strike--to hold 
any target on the globe at risk--will be of growing importance in the 
coming decade. Our conventional precision strike forces compose a 
significant portion of the Nation's deterrent capability, providing 
national leaders with a range of crisis response and escalation control 
options. Our nuclear deterrent forces provide two-thirds of the 
Nation's nuclear triad, competently forming the foundation of global 
stability and underwriting our national security and that of our 
allies. However, increasingly sophisticated air defenses and long-range 
missile threats require a focused modernization effort exemplified by 
the long-range strike family of systems. A key element of this effort 
is the long-range strike bomber (LRS-B) which will strengthen both 
conventional and nuclear deterrence well into the future.
    Collectively, these capabilities, and the Air Force's ability to 
command and control the air, space, and cyber systems, provide the 
Nation with the global vigilance, global reach, and global power 
necessary to implement the new strategic guidance.
                   adapting to constrained resources
    Although the contributions that the Air Force provides to the Joint 
Force have increased in relevance over time, there has not been a 
corresponding proportional increase in resources. The Air Force has 
entered this era of fiscal austerity with significantly fewer uniformed 
personnel, with older equipment, and with a smaller budget share than 
any military Department in one-half a century. The Air Force has been 
continuously engaged in combat for more than two decades and has taken 
on a range of new missions. Yet over that same time period, our 
aircraft inventory and end strength declined. Since 2001, we have 
reduced our inventory by more than 500 aircraft and have added new 
missions, while end strength has come down by thousands of airmen, 
leaving us next year with the smallest force since our inception in 
1947. Meanwhile, the average age of Air Force aircraft has risen 
dramatically:
  --fighters stand at 22 years;
  --bombers, 35 years; and
  --tankers, 47 years.
    Reduced manpower, full-scale operations, and reduced training 
opportunities have pushed our readiness to the edge. The budget 
increases that have occurred in the last decade were primarily consumed 
by operational expenses, not procurement. There is a compelling need to 
invest in next-generation, high-impact systems so that the Air Force 
can continue to provide the capabilities on which our Nation relies. 
The failure to make the proper investments now will imperil the 
effectiveness of the future force and our ability to execute the new 
strategic guidance for decades to come.
    We are mindful, however, of the current fiscal situation and 
recognize that we must contribute to Governmentwide deficit reduction 
as a national security imperative. Our ability to make proper 
investments to modernize and sustain the capabilities of the Air Force 
is directly tied to the economic health of the United States. In 
addition, as respectful stewards of the American taxpayer's dollars, 
the Air Force is committed to achieving audit readiness and meeting 
Secretary Panetta's accelerated goal to achieve auditability of the 
Statement of Budgetary Resources by 2014. Over the last year, the Air 
Force has made real progress, receiving clean audit opinions on two 
important components of our budget and accounting processes from 
independent public accounting firms. In the coming year, the Air Force 
expects to have independent auditors examine the audit readiness of our 
military equipment inventories, our base-level funds distribution 
process, and our civilian pay process.
    The Air Force fiscal year 2013 budget request reflects aggressive 
prioritization of limited resources, heavily informed by the new 
strategic guidance, with regard to both capability and capacity of our 
forces--that is, both what capabilities we should buy and how much of 
them. The budget brings together strategic guidance with fiscal 
constraint. Its guiding principle was balance. To retain critical core 
Air Force capabilities and the ability to rapidly respond to mission 
demands, the Air Force balanced risk across all mission areas.
    Although we will be smaller and leaner, we will not sacrifice 
readiness. Selected reductions in force structure and modernization 
programs were based on careful assessments reflecting the requirements 
to address potential future conflict scenarios and to emphasize the 
Middle East and Asia-Pacific regions. Force and program development 
choices were also influenced by the need to protect our ability to 
regenerate capabilities to meet future, unforeseen demands. Our budget 
request seeks to leverage strong relationships with allies and 
partners, including the development of new partners. Finally, the 
fiscal year 2013 budget request honors and protects the high-quality 
and battle-tested professionals of the All-Volunteer Force.
Force Structure
    The fiscal reality and strategic direction mean that the Air Force 
will continue the long-term trend of accepting a smaller force to 
ensure high quality. In planning for a smaller force, our decisions 
favored retention of multirole platforms over those with more narrowly 
focused capabilities--for example, F-16s over A-10s and F-15Cs, and C-
130s over C-27s. Where feasible, we sought to divest smaller fleets 
with niche capabilities and stressed common configurations for key 
platforms in order to maximize operational flexibility and minimize 
sustainment costs.
            Aircraft
    In meeting the force sizing requirements of the new strategic 
guidance and to remain within the constraints of the Budget Control 
Act, the Air Force made the difficult choice of divesting 227 aircraft 
from our combat and combat support aircraft fleets in the fiscal year 
2013 budget request. Total divestitures rise to more than 280 aircraft 
over the fiscal year 2013-2017 future years defense plan (FYDP) period. 
These divestitures will result in $8.7 billion in savings across the 
Active and Reserve components.
    In order to balance current and future requirements in the Combat 
Air Forces (CAF), we are reducing the total number of combat-coded 
fighter squadrons from 60 to 54 (31 Active squadrons and 23 Reserve 
component squadrons). As part of a broader strategy to reshape the Air 
Force into a smaller, yet capable force, we divested 21 F-16 Block 30 
aircraft in the Reserve component and 102 A-10s (20 Active and 82 
Reserve component) from the total aircraft inventory. In making these 
difficult choices, we considered several factors:
  --the relative operational value of weapon systems to counter capable 
        adversaries in denied environments;
  --fleet management principles, such as retiring older aircraft first 
        and prioritizing multi-role aircraft; and
  --operational flexibility, forward-basing, and host-nation 
        commitments.
    The allocation of reductions between the Active and Reserve 
components took into consideration the Air Force's surge requirements 
as directed by the new strategic guidance, the expected future 
deployment tempo, the need to increase means to accumulate fighter 
pilot experience, and the imperative to ensure that the Reserve 
component remains relevant and engaged in both enduring and evolving 
missions.
    In the Mobility Air Forces (MAF), we sized the fleet to a total of 
275 strategic airlifters--52 C-5Ms and 223 C-17s.
    We will seek legislative approval to retire 27 C-5As across fiscal 
year 2013-2016, going below the fiscal year 2012 National Defense 
Authorization Act (NDAA) strategic airlift floor of 301 aircraft. This 
will avert higher sustainment costs for aircraft with substantially 
less reliability than the C-17 or C-5M. For our intra-theater airlift, 
the fleet was sized to meet the airlift requirements of the new 
strategy, including our direct support requirements of ground forces. 
We will retire 65 C-130Hs across fiscal year 2013-2017 and are 
divesting the C-27J fleet. After these retirements, we will maintain a 
fleet of 318 C-130s (134 C-130Js and 184 C-130Hs). Our air refueling 
fleet is being reduced to 453 tankers after retiring 20 KC-135s. The 
development and procurement of the KC-46A is on-track for initial 
delivery in fiscal year 2016 with the strategic basing process 
underway.
    In our ISR aircraft fleet, we plan to divest all 18 RQ-4 Global 
Hawk Block 30 aircraft and retain the U-2S Dragon Lady program. Due to 
the reduction in high altitude ISR combat air patrol (CAP) 
requirements, the need for RQ-4 upgrades to meet current U-2 sensor 
operational performance levels, and the high-operational costs of the 
RQ-4, continued investment into the U-2 is both the fiscally and 
operationally responsible choice. Transferring the MC-12W Liberty from 
the Active component to the Air National Guard (ANG) reflects the 
assessment that the ANG is the appropriate place for long-term, 
scalable support of medium-altitude ISR. The Active component will 
retain association with the ANG units. The MC-12W will also perform the 
mission of the divested RC-26 fleet. Finally, we will retire one E-8C 
Joint Surveillance Target Attack Radar System (JSTARS) aircraft that is 
damaged beyond economical repair.
    Air Force leaders recognize that proposals to retire aircraft are 
often contentious and that the Congress has at times written 
legislation blocking or delaying proposed retirements. We are committed 
to faithfully executing the law; however, we urge the congressional 
defense committees and the Congress as a whole to be especially 
cautious about proposals to block or delay aircraft retirements that do 
not provide the additional human and financial resources needed to 
operate and maintain those airframes. Retaining large numbers of under-
resourced aircraft in the fleet in today's fiscally constrained 
environment will significantly increase the risk of a hollow force. 
After the intense efforts to find efficiencies over the past few years, 
the Air Force has only a limited ability to reallocate resources and 
personnel to uncovered operations without creating major disruption in 
other critical activities.
            End Strength
    In correlation to the reductions in our aircraft force structure, 
we are also adjusting our end strength numbers. Since 2004, our Active, 
Guard, and Reserve end strength has decreased by more than 48,000 
personnel. By the end of fiscal year 2013, end strength will be reduced 
a further 9,900 from 510,900 to 501,000. This will result in a 
reduction in Active Duty military end strength from 332,800 to 328,900, 
Reserve military end strength will decrease by 900 to 70,500, and ANG 
military end strength will decrease by 5,100 to 101,600. Although the 
reductions in aircraft and personnel carry risk, we are committed to 
managing that risk and ensuring successful execution of the new 
strategic guidance.
            Reserve Component
    The Air Force has enjoyed great success in leveraging our Total 
Force Enterprise to present our enduring core capabilities to the Joint 
warfighter. The ANG and Air Force Reserve are integrated into all major 
Air Force mission areas, train to the same high standards as the Active 
component, and are invaluable partners in helping us meet our many and 
varied commitments. This will not change--we will rely on our Air 
Reserve Component (ARC) as both a strategic and operational reserve. A 
strategic reserve can be employed to mobilize significant numbers of 
airmen in the event of a significant national crisis while an 
operational reserve will still be used to augment day-to-day 
operations.
    Maintaining the appropriate mix of forces between the Active and 
Reserve components is critical to sustaining Air Force capabilities for 
forward presence, rapid response, and high-rate rotational demands 
within a smaller overall force. Over the years, we have adjusted the 
mix between Active and Reserve components to ensure we maintained a 
ready and sustainable force and could meet our surge and rotational 
requirements. The Air Force has successfully met the demand of 
increased operations tempo through a combination of volunteerism, 
selective mobilization, and the establishment of Classic, Active, and 
ARC associations to better manage high-activity rates. However, two 
decades of military end strength and force structure reductions in our 
Active component have shifted the ratio of Active to Reserve component 
forces. In 1990, the Reserve component represented 25 percent of total 
force end strength; today that percentage is at 35 percent. Reserve 
component aircraft ownership also increased from approximately 23 
percent to 28 percent over the same period.
    The total Air Force leadership carefully considered the ratio 
between the Active and Reserve components for the proposed force 
structure reductions in the 2013 budget request. The expected 
deployment tempo, and the need to increase pilot seasoning drove the 
allocation of reductions between components. The proper ratio between 
components must be achieved to maintain acceptable operations tempo 
levels within each component and to preserve the ability of a smaller 
Air Force to meet continued overseas presence demands, and the rapid 
deployment and rotational force requirements of the strategic guidance.
    While the Air Force Reserve and ANG are significantly affected by 
the proposed 2013 Air Force budget request, they remain essential 
elements of our total force. Due to the magnitude of the budget 
decline, our programmed reductions are wide-ranging, directly impacting 
more than 60 installations. Thirty-three States will be directly 
impacted, but all 54 States and territories will be affected in some 
way by the proposed aircraft and manpower reductions. Although some 
squadrons will actually grow larger, it is unlikely that there will be 
a 100-percent backfill of personnel or alternative mission for every 
location. Without the total force re-missioning actions we are 
proposing, these reductions would have significantly affected 24 units 
and left eight installations without an Air Force presence.
    In close coordination with our ANG and Air Force Reserve leaders, 
we have developed a detailed plan that will mitigate the impact by 
realigning missions to restore 14 of the 24 units. Nine of the 
remaining ten units have existing missions, or the mission will 
transfer from the ANG to the Air Force Reserve. Our plan also maintains 
an Air Force presence on seven of the eight affected installations. 
This plan will allow us to preserve an appropriate Active to Reserve 
component force mix ratio and minimizes the possibility of uncovered 
missions. The aircraft force structure changes also presented an 
opportunity for the ANG to realign manpower to ensure proper mission 
resourcing while simultaneously bolstering ANG readiness. The fiscal 
year 2013 adjustments in strategy, force structure, and resources 
allowed us to realign manpower within the ANG to properly source its 
growing MC-12W and MQ-1/9 missions.
    After the proposed force reductions and mitigations, Reserve 
component end strength will make up 33 percent of total force military 
personnel, a reduction of 2 percent from the fiscal year 2012 numbers. 
Within the CAF, the Reserve component will have 38 percent of total 
aircraft which is 4 percent lower than fiscal year 2012. For the MAF, 
the Reserve component shares shifts from 51 percent to 46 percent. In 
order to maintain capability, the Air Force intends to grow the number 
of total force Integration associations from 100 to 115. This will 
enable the seasoning of our Active Duty personnel while improving the 
combat capacity of our Reserve component.
Readiness
    Readiness is comprised of complementary components, such as flying 
hours, weapon system sustainment, and facilities and installations. A 
good readiness posture depends on health in all of these key areas. In 
spite of aircraft divestments and reduction in personnel, we are 
committed to executing the Defense strategy and will ensure America's 
Air Force remains ready to perform its mission every day. High 
operations tempo has had some detrimental effects on our overall 
readiness, particularly in the context of aging weapons systems and 
stress on our personnel.
    Since September 11, 2001, the Air Force has flown more than 455,000 
sorties in support of Operations Iraqi Freedom and New Dawn and more 
than 350,000 sorties in support of Operation Enduring Freedom. In 2011, 
our airmen averaged approximately 400 sorties every day, with December 
17, 2011, marking the first day in 20 years that the Air Force did not 
fly an air tasking sortie in Iraq. Maintaining our ability to be ready 
across the full spectrum of operations has been challenging in recent 
years, especially for the CAF and certain limited-supply/high-demand 
units. We will continue to revise our readiness tracking systems to 
provide increasingly accurate assessments and mitigate readiness 
shortfalls. Preserving readiness and avoiding a hollow force was a non-
negotiable priority for the Air Force and DOD in developing the fiscal 
year 2013 budget.
            Weapons System Sustainment
    During previous budget cycles, the overall Air Force weapons system 
sustainment (WSS) requirement increased each year due to sustainment 
strategy, the complexity of new aircraft, operations tempo, force 
structure changes, and growth in depot work packages for legacy 
aircraft. In fiscal year 2013, although the Air Force is retiring some 
combat, mobility, and ISR force structure, our overall weapon system 
sustainment requirements continue to increase. These cost increases, 
along with a reduction in the Service's overseas contingency operations 
(OCO) request, resulted in a slight decrease in the percentage of 
weapons systems sustainment requirements funded from fiscal year 2012 
to fiscal year 2013.
    Including the OCO request, WSS is funded at 79 percent of 
requirement in the fiscal year 2013 budget.
    We maintained our readiness capability in the portfolio areas most 
directly affecting readiness such as aircraft, engines, and missiles, 
while taking some risk in areas that are less readiness related in the 
short term such as technical orders, sustaining engineering, and 
software. Additionally, the Air Force continues to conduct requirements 
reviews and streamline organizations and processes to reduce 
maintenance and material costs, develop depot efficiencies, and manage 
weapon system requirements growth. The goal of these efforts is to 
sustain fiscal year 2012 weapon system sustainment performance levels 
for fiscal year 2013.
            Facility Sustainment, Restoration, and Modernization
    The sustainment portion of facilities sustainment, restoration, and 
modernization (FSRM) was funded more than 80 percent of the Office of 
the Secretary of Defense (OSD) facility sustainment model. Due to 
current fiscal realities the revised strategic guidance, the Air Force 
is also taking a deliberate pause in its military construction (MILCON) 
program, resulting in a nearly $900 million reduction from fiscal year 
2012 enacted levels. To manage the risk associated with these actions 
we continue civil engineering transformation to employ an enterprise-
wide, centralized, asset management approach to installation resourcing 
which maximizes each facility dollar.
            Flying Hour Program
    The emphasis on readiness in the new strategic guidance reinforced 
Air Force focus on the importance of maintaining our flying hour 
program (FHP). The fiscal year 2013 budget removes flying hours where 
associated with the retirement of some of our oldest aircraft and 
divestiture of single-role mission weapon systems. In the remainder of 
the FHP, however, levels are consistent with fiscal year 2012 levels to 
prevent further erosion of readiness. The fiscal year 2013 baseline FHP 
remains optimized as we continue to fly a significant portion of our 
hours in the Central Command (CENTCOM) area of responsibility (AOR), 
but still poses a measured risk to our full-spectrum training and 
readiness levels, especially with our tactical fighters. As operations 
in the CENTCOM AOR decrease, these OCO hours will migrate back to our 
baseline program to ensure peacetime FHP requirements are met. We are 
also committed to a long-term effort to increase our live, virtual, and 
constructive operational training (LVC-OT) capability and capacity by 
funding improvements in our LVC-OT devices (e.g., simulators and 
virtual trainers) and networks.
    Although the Air Force has no single rollup metric to measure FHP 
requirements, we are working toward a set of metrics that clearly 
articulate the training requirements needed to support desired 
readiness levels. Our challenge is that the diversity of our missions 
does not lend itself to yardsticks like ``hours per crewmember per 
month''. The Air Force operates a wide variety of aircraft--including 
multirole aircraft--that require differing training requirements in 
amount and type for each aircrew member. In addition, we have critical 
space and cyber units that involve no aircraft at all. As we develop 
FHP metrics, we will dovetail our efforts with the work being done at 
the Cost Assessment and Program Evaluation (CAPE) office at the OSD to 
study the relationship between Defense funding and military readiness 
and mature necessary metrics and assessment tools.
    Even though the Air Force will be smaller in capacity, we will 
remain highly capable and lethal, as well as ready, agile, and 
deployable.
Modernization
    Looking ahead, the Air Force faces two primary strategic 
challenges. In the face of declining budgets, we must still provide the 
essential force structure and capabilities on which the Joint Force 
depends. Historical and projected uses of U.S. military forces and our 
inability to accurately predict the future, make the complete 
divestment of the capability to conduct any 1 of the 12 Air Force Core 
Functions imprudent. Yet, the new strategic guidance also requires 
continuing modernization of our aging force to address the 
proliferation of modern threats. Finding the right balance requires a 
long-range plan that begins with a strategic vision. Implementing 
across the board cuts will not produce the envisioned Joint Force of 
2020.
    Accordingly, we carefully scrutinized all our weapons systems and 
capabilities to determine which require investment today and those that 
can be deferred. We then made the tough choices to maximize our 
military effectiveness in a constrained resource environment. Combat 
and combat support aircraft force structure reductions, coupled with 
reduced development and procurement of preferred munitions and other 
key modernization programs, were essential to achieving the Air Force 
fiscal year 2013 budget targets.
    In fiscal year 2013, we have programmed $35.8 billion for 
modernization, approximately 33 percent of the Air Force total 
obligation authority. We are slowing the pace and scope of 
modernization while protecting programs critical to future warfighter 
needs. Focused investment in high-priority programs such as the F-35 
Joint Strike Fighter, LRS-B, KC-46A refueling tanker, service-life 
extension of the F-16, space-based infrared and advanced extremely 
high-frequency satellites, space situational awareness capabilities, 
and our space launch capability is critical to the Department's overall 
strategy. Access and continued freedom of maneuver within cyberspace is 
an essential requirement for our networked force, therefore the 
development of offensive and defensive cyber capabilities remains a top 
Air Force priority. Additionally, in coordination with the Navy, the 
Air Force will fund modern radars, precision munitions, and other 
priorities to support the ASB concept and ensure worldwide power 
projection despite increasing A2/AD challenges.
    To continue funding these high-priority investments, we made the 
hard choices to terminate or restructure programs with unaffordable 
cost growth or technical challenges such as the RQ-4 Block 30, B-2 
extremely high-frequency radio improvements, and the Family of Advanced 
Beyond Line of Sight Terminals (FAB-7). We eliminated expensive 
programs, such as the C-130 Avionics Modernization Program, the C-27J 
program, and Defense Weather Satellite System, which have more 
affordable alternatives that still accomplish the mission. Likewise, we 
discontinued or deferred programs that are simply beyond our reach in 
the current fiscal environment, such as the common vertical lift 
support platform, light mobility aircraft, and light attack and armed 
reconnaissance aircraft. The fiscal year 2013 budget also accepts 
significant near-term risk in MILCON for current mission facilities, 
limiting ourselves to projects required to support new aircraft bed 
downs and emerging missions.
    Underpinning the Air Force's ability to leverage and field these 
crucial technologies is America's aerospace research and development 
infrastructure--a national asset that must be protected to ensure 
future U.S. advantages in technology and civil aerospace. Therefore, 
the Air Force's budget protects science and technology funding as a 
share of our total resources.
More Disciplined Use of Defense Dollars
    In June 2010, the Secretary of Defense challenged the Services to 
increase funding for mission activities by identifying efficiencies in 
overhead, support, and other less mission-essential areas in an effort 
to identify $100 billion in DOD savings for reinvestment. Our fiscal 
year 2013 budget continues to depend on successfully managing and 
delivering the $33.3 billion in Air Force efficiencies from fiscal year 
2012 to fiscal year 2016 associated with the fiscal year 2012 
President's budget submission. We are actively managing and reporting 
on these, as well as the Air Force portion of DOD-wide efficiencies. In 
light of the current budget constraints, the Air Force continues to 
seek out opportunities for additional efficiencies.
    The fiscal year 2013 budget request includes additional savings of 
$6.6 billion over the next 5 years from our more disciplined use of DOD 
dollars. This represents $3.4 billion in new efficiency efforts as well 
as $3.2 billion in programmatic adjustments. These reductions continue 
to focus on overhead cost reductions and spending constraints 
consistent with Executive Order 13589, ``Promoting Efficient 
Spending'', and an Office of Management and Budget (OMB) memorandum, 
dated November 7, 2011, to reduce contract spending for management 
support services. Areas in which we are seeking major efficiencies and 
spending reductions in this budget submission include information 
technology, service contracts, travel, and inventory.
    We are identifying and eliminating duplicate information technology 
applications across our business and mission system areas. Policies and 
better spending controls will be placed within modernization and legacy 
systems sustainment areas. We have committed to save $100 million in 
fiscal year 2013 and $1.1 billion across the future years defense plan 
(FYDP) in this area. We continue to put downward pressure on service 
support contract spending and are committing to an additional $200 
million reduction in fiscal year 2013 and $1 billion across the FYDP. 
These efforts are consistent with Secretary of Defense-directed 
efficiencies across the DOD and OMB guidance to reduce contract 
spending by 15 percent by the end of fiscal year 2012 from a fiscal 
year 2010 baseline. Executive Order 13589 also directs reductions in 
travel across Departments. The Air Force budget for travel has steadily 
declined from actual spending of $984 million in fiscal year 2010 to a 
budgeted-level of $810 million in fiscal year 2012. Between Air Force 
budget reductions and DOD-directed travel reductions, the fiscal year 
2013 President's budget reflects an additional $116 million travel 
savings in fiscal year 2013 and $583 million across the FYDP. Finally, 
a bottom-up review of base-level inventory is planned, with the intent 
of identifying consumable and repairable items that are excess, 
including Government Purchase Card-procured excess inventory. We 
estimate $45 million savings in fiscal year 2013 and $225 million 
across the FYDP.
Taking Care of Our People
    Regardless of any strategy realignment or future mission 
commitment, the hallmark of our success as an Air Force has always 
been, and will remain, our people. Our mission effectiveness depends 
first and foremost on the readiness and dedication of our airmen. 
Nearly two decades of sustained combat, humanitarian, and stability 
operations have imposed extraordinary demands on our force. As we look 
to the future of reduced funding and fewer manpower positions, we are 
working hard to continue meeting the needs of a 21st century force. The 
Nation owes a debt of gratitude for the sacrifices made by our airmen 
and their families.
    Despite the difficult budgetary environment, we are committed to 
our Air Force community. Therefore, quality-of-service programs must 
continue as one of our highest priorities. We are sustaining cost-
effective services and programs to maintain balanced, healthy, and 
resilient airmen and families so that they are equipped to meet the 
demands of high operations tempo and persistent conflict. As our force 
changes, we must adapt our programs and services to ensure we meet the 
needs of today's airmen and their families. Developing our airmen will 
be a key focus as we continue efforts to reduce the ``cost of doing 
business'' and develop lighter-footprint approaches to achieving 
security objectives. We will do this by developing expertise in foreign 
language, regional, and cultural skills while also ensuring our 
educational programs focus on current and anticipated mission 
requirements.
    Even as Air Force end strength continues to be reduced, 
requirements for some career fields--like special operations, ISR, and 
cyber--continue to grow. We will continue to size and shape the force 
through a series of voluntary and involuntary programs designed to 
retain the highest-quality airmen with the right skills and 
capabilities. As we take steps to reduce our end strength, we will 
offer support programs to help separating airmen translate their 
military skills to the civilian workforce and facilitate the transition 
in a way that capitalizes on the tremendous experience in technical 
fields and leadership that they accrue while serving.
    Although retention is at a record high, we must sustain accessions 
for the long term and utilize a series of recruiting and retention 
bonuses to ensure the right balance of skills exist across the spectrum 
of the force. Enlistment bonuses are the most effective, responsive, 
and measurable tool for meeting requirements growth in emerging 
missions, while retention bonuses encourage airmen to remain in, or 
retrain into, career fields with high-operational demands.
    We recognize the unique demands of military service and want to 
ensure that our airmen are compensated in a way that honors that 
service. Accordingly, the President has announced a 1.7-percent 
increase in basic military pay for fiscal year 2013. The costs of 
military pay, allowances, and healthcare have risen significantly in 
the last decade. These costs have nearly doubled DOD-wide since fiscal 
year 2001 while the number of full-time military personnel, including 
activated Reserves, has increased only 8 percent. As budgets decrease, 
we must find ways to achieve savings in this area to prevent overly 
large cuts in forces, readiness, and modernization. As part of a DOD-
wide effort, we are looking at a gamut of proposals, including 
healthcare initiatives and retirement system changes, to meet deficit 
reduction targets and slow cost growth. Proposed healthcare changes 
will focus on working-age retirees and the retirement commission will 
address potential future changes, with the current force grandfathered 
into the current system. The Defense budget includes a number of 
proposals to control healthcare cost growth in fiscal year 2013 and for 
the longer term. The recommendations included in the budget reflect the 
proper balance and the right priorities.
    We must go forward with balanced set of reductions in the military 
budget that not only implements the strategic guidance but also does 
our part to alleviate the Nation's economic difficulties. Any solutions 
to this problem will be deliberate, will recognize that the All-
Volunteer Force is the core of our military, and will not break faith 
with the airmen and families who serve our Nation.
    With this as a backdrop, the Air Force has approached its 
investment strategy in a way that seeks to apply our resources to the 
people, programs, and systems that will best contribute to the new DOD 
strategic guidance.
                        air force core functions
    The Air Force core functions provide a framework for balancing 
investments across Air Force capabilities and our enduring 
contributions as we align our resources to the new defense strategic 
guidance. However, none of these core functions should be viewed in 
isolation. There is inherent interdependence among these capabilities 
within the Air Force, the Joint Force, and in some cases, throughout 
the United States Government. The Air Force's budget request of $110.1 
billion reflects the difficult choices that had to be made as a result 
of Air Force fiscal limitations, while still providing an appropriate 
balance of investment across our core functions in a way that best 
supports key DOD military missions. Additional detailed information 
about each core function, including specific investment figures, can be 
found in the Budget Overview Book and in the detailed budget 
justification documents provided to the Congress.
Air Superiority
    U.S. forces must be able to deter and defeat adversaries in 
multiple conflicts and across all domains. In particular, even when 
U.S. forces are committed to a large-scale operation in one region, 
they must also be capable of denying the objectives of--or imposing 
unacceptable costs on--an opportunistic aggressor in a second region. 
Securing the high ground is a critical prerequisite for any military 
operation to ensure freedom of action for the Joint Force and the 
Nation. In making operational plans, American ground forces assume they 
will be able to operate with minimal threat of attack from enemy 
aircraft or missile systems. For nearly six decades, Air Force 
investments, expertise, and sacrifice in achieving air superiority have 
ensured that condition. The last time any American ground forces were 
killed by an enemy air strike was April 15, 1953.
    But while the United States has enjoyed this control of the air for 
the last 60 years, there is no guarantee of air superiority in the 
future. Airspace control remains vitally important in all operating 
environments to ensure the advantages of rapid global mobility, ISR, 
and precision strike are broadly available to the combatant commander. 
Fast-growing, near-peer capabilities are beginning to erode the legacy 
fighter fleet's ability to control the air. Likewise, emerging 
adversaries are developing significant air threats by both leveraging 
inexpensive technology to modify existing airframes with improved 
radars, sensors, jammers and weapons, and pursuing fifth-generation 
aircraft. Simultaneously, current operations are pressing our legacy 
systems into new roles. As a result, the legacy fighter fleet is 
accumulating flying hours both faster and differently than anticipated 
when they were purchased decades ago.
    Given these realities, the Air Force's fiscal year 2013 budget 
request includes $8.3 billion for initiatives to address current and 
future air superiority needs. We continue incremental modernization of 
the F-22 fleet, including Increment 3.2A, a software-only upgrade 
adding new electronic protection (EP) and combat identification 
techniques. The fiscal year 2013 budget request includes approximately 
$140.1 million for Increment 3.2B, which includes the integration of 
AIM-120D and AIM-9X capabilities, data link improvements, and faster, 
more accurate target mapping. We are continuing the F-15 active 
electronically scanned array (AESA) radar modernization program, 
funding the F-15 Advanced Display Core Processor (ADCP), and funding 
the development and procurement of an Eagle Passive/Active Warning and 
Survivability System (EPAWSS). We are also investing in fourth-
generation radar upgrades to ensure their continued viability, 
sustaining the development and procurement of preferred air-to-air 
munitions and select electronic warfare enhancements, and resourcing 
critical readiness enablers, including training capabilities and 
modernized range equipment.
    As part of our Airspace Control Alert mission, the Air Force, 
working closely with U.S. Northern Command, reduced full-time ANG 
requirements at two sites while maintaining overall surveillance and 
intercept coverage.
Global Precision Attack
    A critical component of the broader mission to deter and defeat 
aggression is the Air Force's ability to hold any target at risk across 
the air, land, and sea domains through global precision attack. Global 
precision attack forces perform traditional strike and customized ISR 
roles to support Joint and coalition ground forces every day. However, 
as A2/AD capabilities proliferate, our fourth-generation fighter and 
legacy bomber capability to penetrate contested airspace is 
increasingly challenged.
    The A2/AD threat environment prescribes the type of assets that can 
employ and survive in-theater. While the Air Force provides the 
majority of these assets, success in this hazardous environment will 
require a combined approach across a broad range of assets and 
employment tools. Even then, these will only provide localized and 
temporary air dominance to achieve desired effects. Simultaneously, 
ongoing contingency operations in a permissive, irregular warfare 
environment at the lower end of the combat spectrum require adapted 
capabilities, including longer aircraft dwell times and increasing use 
of our platforms in unique intelligence gathering roles. Our fiscal 
year 2013 budget request of $15.5 billion applies resources that will 
help the Air Force best meet threats in evolving A2/AD environments.
    To enhance our global strike ability, we are prioritizing 
investment in fifth-generation aircraft while sustaining legacy 
platforms as a bridge to the F-35 Joint Strike Fighter, the centerpiece 
of our future precision attack capability. In addition to complementing 
the F-22's world-class air superiority capabilities, the F-35A is 
designed to penetrate air defenses and deliver a wide range of 
precision munitions. This modern, fifth-generation aircraft brings the 
added benefit of increased allied interoperability and cost-sharing 
between services and partner nations. The fiscal year 2013 budget 
includes approximately $5 billion for continued development and the 
procurement of 19 F-35A conventional take-off and landing (CTOL) 
aircraft, spares, and support equipment. In fiscal year 2013, we 
deferred 98 CTOLs from the F-35A program.
    As we move toward fifth-generation recapitalization, we are funding 
fourth-generation fighter modernization to ensure a capable global 
attack fleet. Reserve component recapitalization will begin based on F-
35 production rates, basing decisions, the F-16 Service Life Extension 
Program (SLEP), and Combat Avionics Programmed Extension Suite (CAPES). 
The Air Force will continue to plan and program for approximately 350 
F-16 service life extensions and capability upgrades over the FYDP to 
ensure a viable F-16 combat capability across the total force and to 
mitigate the effects of F-35 procurement rate adjustments on the total 
fighter force capacity during completion of system development and low 
rate initial production.
    In our fiscal year 2013 submission, we accepted risk by retiring 
102 A-10s and 21 F-16s. Although the A-10 remains essential for 
combined arms and stability operations, we chose to retire more A-10s 
because other multirole platforms provide more utility across the range 
of the potential missions. We are retaining enough A-10s to meet the 
direction of the new strategic guidance to maintain readiness and 
capability while avoiding a hollow force.
    We are modernizing conventional bombers to sustain capability while 
investing in the Long-Range Strike Family of Systems. The bomber fleet 
was retained at its current size because we recognized the importance 
of long-range strike in the current and future security environments. 
The Air Force is enhancing long-range strike capabilities by upgrading 
the B-2 fleet with an improved Defensive Management System (DMS) and a 
new survivable communication system, and is increasing conventional 
precision guided weapon capacity within the B-52 fleet. We are 
investing $191.4 million in modernizing the B-1 to prevent obsolescence 
and diminishing manufacturing sources issues and to help sustain the B-
1 to its approximate 2040 service life. In addition to aircraft 
modernization, we are upgrading our B-1 training and simulator systems 
to match aircraft configuration and ensure continued sustainability.
    Procuring a new penetrating bomber is critical to maintaining our 
long-range strike capability in the face of evolving A2/AD 
environments. The new long-range, penetrating, and nuclear-capable 
bomber (LRS-B), which will be capable of both manned and unmanned 
operations, will be designed and built using proven technologies, and 
will leverage existing systems to provide sufficient capability. It 
will also permit growth to improve the system as technology matures and 
threats evolve. We must ensure that the new bomber is operationally 
capable before the current aging B-52 and B-1 bomber fleets are 
retired. LRS-B is fully funded at $291.7 million in the fiscal year 
2013 budget.
Global Integrated ISR
    Global integrated ISR includes conducting and synchronizing 
surveillance and reconnaissance across all domains--air, space, and 
cyber. These ISR capabilities produce essential intelligence to achieve 
decision superiority through planning, collecting, processing, 
analyzing, and rapidly disseminating critical information to national- 
and theater-level decisionmakers across the spectrum of worldwide 
military operations. Air Force ISR growth and improvement over the last 
decade has been unprecedented. Because of the dynamic nature of the 
operating environment, the Air Force conducted an extensive review of 
the entire Air Force ISR enterprise in 2011 to inform future planning 
and programming decisions. Even as the United States plans to reduce 
our military presence in CENTCOM AOR, combatant commands will continue 
to use our ISR capabilities to combat global terrorism, provide global 
and localized situational awareness, and support future contingencies.
    Recognizing the need for continued and improved ISR capabilities, 
and based on the 2011 ISR review, the Air Force is investing $7.1 
billion in this core function in fiscal year 2013. We are continuously 
improving the current suite of capabilities and will field the MQ-9 
Reaper to meet delivery of 65 remotely piloted aircraft (RPA) combat 
air patrols (CAPs) by May 2014. We are actively managing our 
procurement rate of MQ-9s to efficiently increase RPA fleet size while 
allowing for necessary aircrew training. We are extending operations 
for the U-2 Dragon Lady manned aircraft, in lieu of investing more 
heavily in the RQ-4 Block 30 Global Hawk fleet. Despite early 
predictions, the savings anticipated by the use of Global Hawks have 
not come to fruition, and we will not invest in new technology at any 
cost. Divesting the RQ-4 Block 30 fleet and extending the U-2 will save 
the Air Force $815 million in fiscal year 2013 and $2.5 billion across 
the FYDP. Sustaining the U-2 fleet will ensure affordable and sustained 
high-altitude ISR for the combatant commanders and joint warfighters.
    We will maintain investment in the MC-12 Liberty as we transfer it 
to the ANG, but we will establish active unit associations to meet 
combat air patrol and surge requirements. The MC-12 will also perform 
the mission carried out by the RC-26 as we divest 11 of those aircraft 
from the ANG. In the ANG, six RPA units have been or are currently 
being established, and an additional five units will stand-up in fiscal 
year 2013. An ANG ISR group with two squadrons will be established to 
conduct ISR in cyberspace and to conduct digital network intelligence 
and cyber target development.
    We are developing a more balanced and survivable mix of airborne 
platforms to enable continued operations in permissive environments and 
to enable operations in A2/AD environments. We are exploring innovative 
ways to leverage space and cyberspace capabilities as part of the 
overall mix of ISR capabilities and partner with joint, coalition, and 
interagency partners, including the use of Air-Sea Battle as a 
framework to develop required capabilities for the joint fight. We are 
investing $163 million in fiscal year 2013 in our ground processing 
enterprise, the Distributed Common Ground System, and will continue 
migration to a service-oriented architecture to handle the increasing 
quantities of ISR data that is integrated and delivered from emerging 
sensors and platforms operating in all domains. We will also improve 
our ability to move information securely and reliably over information 
pathways. Finally, we are improving analyst capability through improved 
training, automation and visualization tools while we deliberately plan 
for future operations using a refined capability planning and analysis 
framework.
Cyberspace Superiority
    Access and continued freedom of maneuver within cyberspace is an 
essential requirement for our networked force. Today's modern forces 
require access to reliable communications and information networks to 
operate effectively at a high operations tempo. Air Force and DOD 
networks face a continuous barrage of assaults from individual hackers, 
organized insurgents, State-sponsored actors, and all level of threats 
in between. Our adversaries are also realizing gains from 
electronically linking their combat capabilities. This is creating new 
warfighting challenges that the Joint Force must be prepared to 
address. As we work to ensure our freedom of movement in cyberspace, we 
will also work with service, joint, and interagency partners on 
additional and further-reaching cyberspace initiatives.
    We are using a cyber strategy which not only improves the Air 
Force's ability to operate in cyberspace, but also mitigates constantly 
increasing infrastructure costs. This approach focuses on near-term 
FYDP investments to automate network defense and operations which 
increase both combat capacity and effectiveness. This effort, led by 
24th Air Force, under Air Force Space Command, includes continued 
development of the Single Integrated Network Environment which provides 
a seamless information flow among air, space, and terrestrial network 
environments, and most importantly, mission assurance to the 
warfighter.
    Our fiscal year 2013 budget request for cyberspace superiority is 
$4 billion. With these funds, we are expanding our ability to rapidly 
acquire network defense tools, such as Host Based Security System, a 
flexible, commercial-off-the-shelf (COTS)-based application to monitor, 
detect, and counter cyber-threats to the Air Force Enterprise. We are 
also investing in advanced technologies to monitor and secure both 
classified and unclassified networks. We have made considerable 
progress in our efforts to meet the emerging challenges and threats in 
cyberspace by fielding a total force of more than 45,000 trained and 
certified professionals equipped to ensure continuity of operations in 
cyberspace. The establishment of an additional ANG network warfare 
squadron (NWS) will enhance the Maryland ANG 175th NWS as they actively 
conduct cyber defense to protect networks and systems. The Air Force 
Reserve will also stand up an Active Association Network Warfare 
Squadron with the 33rd Network Warfare Squadron at Lackland AFB, Texas.
    To keep with the rapid pace of technology, the Air Force is 
developing Joint standardization and acquisition strategies to enable 
quick delivery of cyber capabilities to address constantly evolving and 
more technologically advanced cyber threats and to improve intelligence 
capabilities in cyberspace. The Air Force is spending $27.3 million on 
the Air Force Wideband Enterprise Terminal, leveraging Army procurement 
efforts for significant quantity savings, joint standardization, 
interoperability, and enabling wideband global satellite communication 
(SATCOM) Ka-band utilization, resulting in greater bandwidth for 
deployed warfighters. The Air Force continues efforts toward the Single 
Air Force Network, which increases Air Force network situational 
awareness and improves information sharing and transport capabilities. 
For future budget requests, the Air Force is working with DOD to define 
near- and long-term solutions to deliver warfighting communication 
capabilities, such as Family of Advanced Beyond Line of Sight Terminals 
(FAB-T) and upgrading the Air Force's wideband enterprise terminals to 
provide joint standardization and greater bandwidth.
Space Superiority
    America's ability to operate effectively across the spectrum of 
conflict also rests heavily on Air Force space capabilities. Airmen 
provide critical space capabilities that enhance the DOD's ability to 
navigate accurately, see clearly, communicate confidently, strike 
precisely, and operate assuredly. General purpose forces, the 
intelligence community, and special operations forces depend on these 
space capabilities to perform their missions every day, on every 
continent, in the air, on the land, and at sea. In addition, space 
operations help ensure access and use of the global commons, enabling a 
multitude of civil and commercial activities such as cellular 
communications, commercial and civil aviation, financial transactions, 
agriculture and infrastructure management, law enforcement, emergency 
response, and many more. Like air superiority, space-based missions can 
easily be taken for granted.
    The Air Force has maintained its record of successful space 
launches, began on-orbit testing of the first advanced extremely high-
frequency military communications satellite, and launched the first 
Space Based Infrared System geosynchronous satellite. Our ability to 
deliver space capabilities is currently without equal. As we become a 
smaller, leaner force in accordance with the new defense strategic 
guidance, the leveraging and multiplying effects that space provides 
will become increasingly important. Improving space situational 
awareness will be key to protecting the unique advantage space 
provides.
    Rapid technology advancements and the long-lead time for 
integrating and fielding new space technology results in an ongoing 
need to plan, design, and implement space advancements. We must procure 
our space systems at the lowest-cost possible while providing assured 
access to space. Our innovative acquisition strategy for the Efficient 
Space Procurement (ESP) \1\ of complex space systems is designed to 
identify efficiencies and use those resources to provide enduring 
capability and help provide stability to the space industrial base. We 
are again requesting advance appropriations to fully fund the 
satellites being procured under ESP. While we are modernizing and 
sustaining many of our satellite constellations, funding constraints 
have slowed our ability to field some space capabilities as rapidly as 
is prudent. Therefore, as we continue to sustain our current level of 
support to the warfighter, the current fiscal environment demands that 
we explore alternate paths to provide resilient solutions. As we 
incorporate the tenets of the new National Space Policy and National 
Security Space Strategy, we are actively developing architectures that 
take into consideration the advantages of leveraging international 
partnerships and commercial space capabilities. One example being 
tested is a commercially hosted infrared payload (CHIRP) launched from 
Guiana Space Center, Kourou, French Guiana, which begins to explore the 
utility of a dedicated payload for missile warning hosted on a 
commercial communications satellite.
---------------------------------------------------------------------------
    \1\ Previously known as Evolutionary Acquisition for Space 
Efficiency (EASE).
---------------------------------------------------------------------------
    With the $9.6 billion in funds for space programs in the fiscal 
year 2013 budget request, the Air Force is recapitalizing many space 
capabilities, fielding new satellite communications systems, replacing 
legacy early missile warning systems, improving space control 
capabilities, and upgrading position, navigation and timing 
capabilities with the launch of Global Positioning System (GPS) IIF 
satellites and the acquisition of GPS III satellites. Consistent with 
the 2012 National Defense Authorization Act (NDAA) and Department of 
Defense Appropriations Act, the Air Force is canceling the Defense 
Weather Satellite System, saving $518.8 million in fiscal year 2013 and 
$2.38 billion more than the FYDP. The Defense Meteorological Satellite 
Program (DMSP) will continue to fulfill this critical requirement as 
the Air Force determines the most prudent way forward.
Nuclear Deterrence Operations
    Credible nuclear capabilities are required to deter potential 
adversaries from attacking our vital interests and to assure our allies 
of our commitments. Although the threat of global nuclear war has 
become remote since the end of the cold war, the prospect of nuclear 
terrorism has increased. Proliferation of nuclear weapons, especially 
among regional power aspirants, is on the rise. Advanced air defenses 
increasingly threaten the survivability of current bombers. Area denial 
and ballistic missile threats reduce our basing options and challenge 
the responsiveness and survivability of long-range strike. As a result, 
the United States must shape its deterrent forces to maintain stability 
among existing nuclear powers, to strengthen regional deterrence, and 
to reassure U.S. allies and partners.
    The Air Force is responsible for 2 of the 3 legs of the nuclear 
triad and continuing to strengthen the Air Force nuclear enterprise 
remains a top Air Force priority. Air Force investment in our bombers 
and intercontinental ballistic missile (ICBM) systems reflects our 
commitment to the nuclear deterrence mission well into the future. Our 
request of $5.1 billion for this core function in fiscal year 2013 
increases sustainment for the Minuteman III ICBM through 2030 with fuze 
component replenishment and replacement programs, as well as new 
transporter erectors. We are also enhancing long-range strike 
capabilities by upgrading the B-2s with an improved Defensive 
Management System (DMS) and a new survivable communication system. 
These investments will ensure the Air Force maintains the capability to 
operate and sustain safe, secure, and effective nuclear forces to deter 
adversaries, hold any target at risk, and respond appropriately if 
deterrence fails. In particular, the responsiveness of the ICBM leg and 
the flexibility of the bomber leg are valued attributes of the nuclear 
force. We are committed to a future force that will have the 
flexibility and resiliency to adapt to changes in the geopolitical 
environment or cope with potential problems in the nuclear stockpile.
    The New Strategic Arms Reduction Treaty requires the United States 
to reduce warheads and delivery capacity by 2018. Our fiscal year 2013 
budget request includes $20.1 million to fund treaty preparatory 
actions that began in fiscal year 2012 and additional actions necessary 
to accomplish the treaty-required reductions by 2018. While final force 
structure decisions have not yet been made, we are continuing to 
develop detailed plans, working with the Department of Defense and U.S. 
Strategic Command, for executing force reduction decisions which retain 
the attributes of the Triad needed for 21st century deterrence.
Rapid Global Mobility
    The Air Force provides unparalleled in-flight refueling and cargo 
carrying capacity in support of worldwide operations. Mobility forces 
provide vital deployment and sustainment capability for Joint and 
coalition forces by delivering essential equipment, personnel, and 
materiel for missions ranging from major combat operations to 
humanitarian relief operations. Achieving unprecedented survival rates, 
our highly skilled aeromedical transport teams swiftly evacuate combat 
casualties, ensuring our wounded warriors receive the best possible 
medical care. A unique Air Force contribution, rapid global mobility 
must be maintained on a scale to support DOD force structure and 
national strategic objectives.
    On any given day, the Air Force fleet of C-17s and C-5s deliver 
critical personnel and cargo, provide airdrop of time-critical 
supplies, food, and ammunition, and enable rapid movement of personnel 
and equipment. Air Force air refueling aircraft will continue to play a 
vital, daily role in extending the range and persistence of almost all 
other Joint Force aircraft. The Air Force remains committed to fully 
funding the acquisition of the new KC-46A tanker with $1.8 billion in 
research, development, testing, and evaluation (RDT&E) in fiscal year 
2013, while also resourcing critical modernization programs for the KC-
10 and KC-135 fleets. This will ensure our Nation retains a tanker 
fleet able to provide crucial air refueling capacity for decades to 
come. The retirement of 20 KC-135s is consistent with our analysis of 
warfighting scenarios based on the strategic guidance and will results 
in savings of $22.5 million in fiscal year 2013. As part of our energy 
efficiency initiatives, we plan to begin upgrading 93 KC-135 engines in 
fiscal year 2013 and 100 more each year through the FYDP. We anticipate 
overall savings in fuel and maintenance of $1.5 billion from this $278 
million investment.
    In addition, with our fiscal year 2013 budget request of $15.9 
billion in rapid global mobility funds, the Air Force will continue to 
modernize its inter-theater airlift fleet of C-17s and C-5s. To move 
toward a common fleet configuration, the Air Force is investing $138.2 
million in fiscal year 2013 for the Global Reach Improvement Program 
(GRIP). The GRIP brings the multiple variants of C-17 to a standard 
configuration, designated the C-17A, that will provide efficiencies in 
operations and weapon system sustainment. We also plan to transfer 
eight C-17s from the Active component to the ANG in fiscal year 2013, 
and an additional eight in fiscal year 2015. We are modernizing the 
most capable C-5 airframes while retiring the final 27 of the oldest 
model, the C-5A. On the remaining 52 C-5s, the Air Force is investing 
$1.3 billion in modernization in fiscal year 2013 to improve capability 
and reliability, including $1.23 billion on the Reliability Enhancement 
and Re-engining Program. We currently have seven operational C-5Ms. The 
retirement of the last C-5A by fiscal year 2016 is timed to match the 
completion of the last C-5M upgrade.
    Because the strategic guidance reduced the overall requirement for 
intra-theater airlift, we are retiring C-130H aircraft (39 in fiscal 
year 2013 and a total of 65 more than the FYDP). These older aircraft 
would require costly modification or modernization to remain viable. We 
will maintain the necessary intra-theater airlift capability and 
capacity by completing the recapitalization of older C-130E/H aircraft 
with the C-130J. The remaining legacy C-130H aircraft are being 
modernized to reduce sustainment costs and ensure global airspace 
access.
    Finally, after rigorous mission analysis, we determined the mission 
performed by the C-27J fleet could be performed by the C-130 fleet 
which is fully capable of meeting direct ground support and homeland 
defense requirements.\2\ The fiscal constraints that demand we become a 
smaller Air Force also support the decision to retain aircraft that 
have multiple role capabilities, like the C-130. Therefore, all 21 C-
27Js in the current fleet will be retired, and we are canceling 
procurement of 17 additional aircraft. Without question, the Air 
Force's commitment to support time-sensitive, mission-critical direct 
airlift support to the Army is unaltered by the divestment of the C-
27J.
---------------------------------------------------------------------------
    \2\ Six of the seven ANG units that are affected by the divestment 
of the C-27J fleet are being backfilled with MC-12W Liberty, ISR/cyber, 
MQ-9, or C-130 units.
---------------------------------------------------------------------------
Command and Control
    Command and control (C2) of our forces has never been more vital or 
more difficult than in the highly complex 21st century military 
operations that depend on close Joint and coalition coordination. C2 is 
the key operational function that ties all the others together to 
achieve our military objectives, enabling commanders to integrate 
operations in multiple theaters at multiple levels through planning, 
coordinating, tasking, executing, monitoring and assessing air, space, 
and cyberspace operations across the range of military operations. No 
longer in a cold war technological environment, the Air Force is 
transforming its C2 to an Internet protocol-based net-centric war 
fighting capability. To do so, the Air Force must sustain, modify, and 
enhance current C2 systems, and develop deployable, scalable, and 
modular systems that are interoperable with joint, interagency, and 
coalition partners.
    The Air Force is focusing its attention to modernization efforts to 
operate in A2/AD environments with our fourth- and fifth-generation 
weapon systems. In doing so, the Air Force will continue to use a 
balanced approach across the C2 portfolio by investing in sustaining 
legacy platforms while modernizing our C2 aircraft fleet and ground 
operating nodes only as needed to sustain our capability. Our fiscal 
year 2013 budget request of $5.8 billion for C2 includes $200 million 
to support secure and reliable strategic level communications through 
the E-4 National Airborne Operations Center (NAOC). We are also 
spending $22.7 million to begin fielding a cockpit modernization 
development program to sustain the capability of the existing Airborne 
Warning and Control System (AWACS) platform and we will continue to 
modernize and sustain the Theater Air Control System Command and 
Control Centers (CRC). The modernization of the Air Operations Center 
(AOC) will move this weapon system to an enterprise system which can 
accept rapid application upgrades and enable future warfighting 
concepts.
    To reduce unnecessary cost, the Air Force will retire one JSTARS 
aircraft that is beyond economical repair, saving the Air Force $13 
million in fiscal year 2013 and $91 million more than the FYDP. The 
JSTARS re-engining system development and demonstration (SDD) flight 
test program completed in January 2012; however, because the fiscal 
year 2012 NDAA reduced re-engining funding, full completion of the re-
engining SDD is under review. The JSTARS re-engining program is not 
funded in fiscal year 2013. We also terminated our portion of the Army-
managed Joint Tactical Radio System (JTRS) small airborne radio program 
that was over cost and behind schedule and will instead leverage 
industry-developed hardware, while continuing the development of the 
required radio waveforms. The termination of this program and the 
associated nonrecurring engineering will save $294 million in fiscal 
year 2013 and $3.2 billion more than the FYDP.
Special Operations
    Success in counterterrorism and irregular warfare missions requires 
the ability to conduct operations in hostile, denied, or politically 
sensitive environments, using other than conventional forces. Air Force 
special operations capabilities continue to play a vital role in 
supporting U.S. Special Operations Command and geographic combatant 
commanders. U.S. special operations forces (SOF) depend on a balanced 
force of air, sea, and land capabilities; Air Commandos bring 
specialized expertise for infiltration and exfiltration and the kinetic 
and nonkinetic application of airpower that are essential to joint 
special operations capabilities.
    Our investments in SOF must strike a balance between winning 
today's fight and building the Joint SOF of the future, including the 
ability to act unilaterally when necessary. Despite the challenging 
fiscal environment, with our budget request of $1.2 billion, the Air 
Force was able to sustain nearly all of the SOF aviation improvements 
realized over the past several years. The programmed buy of 50 CV-22 
Ospreys will complete in fiscal year 2014, and the procurement of MC-
130Js for the recapitalization of 37 MC-130E/Ps will also complete in 
fiscal year 2014. MC-130H/W recapitalization will begin in fiscal year 
2015, a year earlier than scheduled in the fiscal year 2012 President's 
budget, which ensures a continued, more capable SOF mobility fleet. The 
Air Force is modernizing our SOF precision strike capability by 
procuring AC-130Js, on a one-for-one basis, to recapitalize our legacy 
AC-130Hs. We are also ensuring our battlefield airmen continue to 
receive first-class equipment and training by adding funds to 
operations and maintenance accounts.
Personnel Recovery
    The Air Force remains committed to modernizing crucial combat 
search and rescue (CSAR) capabilities. The additional use of personnel 
recovery (PR) forces for medical and casualty evacuation, humanitarian 
assistance, disaster response, and civil search and rescue operations 
has steadily risen since the early 1990s. This increase in usage has 
taken its toll on the aircraft and significantly affected availability. 
Currently, Air Force PR forces are fully engaged in the CENTCOM and 
Africa Command AORs, accomplishing lifesaving medical and casualty 
evacuation missions. They are also supporting domestic civil land and 
maritime search and rescue, humanitarian assistance/disaster relief, 
and mass casualty evacuation missions. The dynamic geopolitical 
environment suggests that the continued need for PR forces to conduct 
nonpermissive CSAR in contingency operations and permissive 
humanitarian assistance, disaster response, and civil search and rescue 
operations will remain.
    To ensure the Air Force is able to provide this vital core function 
in the future, we are recapitalizing our fixed wing aircraft, 
replenishing our rotary wing aircraft through the Operational Loss 
Replacement (OLR) program, and replacing aging rotary wing aircraft 
through the Combat Rescue Helicopter (CRH) program. The $1.4 billion 
fiscal year 2013 budget request for PR includes $152.2 million for the 
HC-130J and $183.8 million for the OLR and CRH programs. The fiscal 
year 2013 RDT&E funding for the CRH was reprogrammed to support the 
acquisition of two test aircraft. The program remains on track to 
produce a replacement for the HH-60G through a full and open 
competition, with initial operational capability planned for fiscal 
year 2018. The Air Force also continues to fund the HH-60G and HC-130 
sustainment programs while continuing to invest in the Guardian Angel 
program that provides first-class equipment and training for the rescue 
force.
Building Partnerships
    Building the capacity of partner governments and their security 
forces is a key element in our national security strategy. The 
establishment of strong, foundational aviation enterprises in our 
partner nations enables successful, sustainable security within their 
own borders while contributing to regional stability. Successful 
partnerships ensure interoperability, integration and interdependence 
between air forces, allowing for effective combined and coalition 
operational employment. These partnerships also provide partner nations 
with the capability and capacity to resolve their own national security 
challenges, thereby reducing the potential demand for a large U.S. 
response or support.
    The necessity for partnering is evident every day in Afghanistan 
where United States and coalition air forces provide flexible and 
efficient airpower support to International Security Assistance Force 
operations. In both Iraq and Afghanistan, airmen are building the 
capabilities and capacities of the Iraqi and Afghanistan air forces so 
that they can successfully employ airpower in their own right. In 
addition, the success of the Libya operations last year can be partly 
attributed to years of engagement that led to improved interoperability 
and highly capable and equipped partner nations.
    These international engagements require airmen to perform their 
duties effectively and achieve influence in culturally complex 
environments around the globe. Fielding the Joint Strike Fighter and 
other platforms will help further our partnerships with more 
established allies. The U.S. role in the 12-nation Strategic Airlift 
Consortium enables a unique fully operational force of three C-17s to 
meet the airlift requirements of our European allies. The fiscal year 
2013 budget request of approximately $300 million in this core function 
continues to fully resource the Strategic Airlift Consortium effort at 
Papa AB, Hungary. The Air Force also committed to field a new aviation 
detachment in Poland.
    Due to fiscal constraints, the Air Force terminated the Light 
Attack Armed Reconnaissance and the Light Mobility Aircraft programs; 
however, the Air Force believes this requirement can be substantially 
met with innovative application of ANG State Partnership Programs and 
Mobility Support Advisory Squadrons. We are working with partner 
nations to build and sustain ISR capacity and help them effectively 
counter threats within their borders. We are also pursuing 
international agreements to increase partner satellite communication, 
space situational awareness, and global positioning, navigation, and 
timing capabilities.
    The Air Force also recognizes that it cannot build effective 
international partnerships without effective U.S. Government 
interagency partnerships. To that end, we are a strong supporter of 
State-Defense exchanges and other programs that provide interagency 
familiarity and training.
Agile Combat Support
    Underpinning our capacity to perform the missions in these core 
functions is the ability to create, protect, and sustain air and space 
forces across the full-spectrum of military operations--from the 
training, education, and development of our airmen to excellence in 
acquisition. The fiscal year 2013 budget request includes $31 billion 
for agile combat support.
    We will continue to support our airmen and their families through 
quality of life and support services such as child care and youth 
programs and initiatives, medical services and rehabilitation for 
wounded warriors, improvements to dining facilities, food delivery, 
fitness centers, and lodging. We are partnering with local communities, 
where feasible, to provide the highest-quality support, and we are 
changing the way that we provide services so that airmen and their 
families are more able to easily access and receive the support they 
need. To ensure we continuously focus on and improve readiness and 
build a more agile and capable force, we have strengthened technical 
and professional development by enhancing technical training, 
professional military education, and language and culture programs.
    The Air Force is committed to sustaining excellence with a smaller 
force. We remain attentive to force management efforts and continue to 
size and shape the force to meet congressionally mandated military end 
strength. A series of voluntary and involuntary force management 
efforts have been successful in reducing Active Duty end strength. 
Force management programs in fiscal year 2012 include voluntary and 
involuntary programs which lessen the need for involuntary actions in 
fiscal year 2013. We are posturing accessions for the long term and 
ensuring the right balance of skills exists to meet operational 
requirements. The Air Force will meet its OSD-directed civilian end 
strength target for fiscal year 2012. The Force Management Program is 
not a quick fix, but a tailored, multiyear effort to manage the force 
along the 30-year continuum of service.
    We are improving acquisition processes, recently completing 
implementation of the Acquisition Improvement Plan (AIP). We have also 
institutionalized the ``Better Buying Power'' (BBP) initiatives 
promulgated by the Under Secretary of Defense for Acquisition, 
Technology and Logistics and are expanding those improvements through 
our Acquisition Continuous Process Improvement 2.0 (CPI 2.0) effort. 
The major elements of the CPI 2.0 Initiative--process simplification, 
requirements, realizing the value proposition, and workforce 
improvement--will build upon the BBP initiatives and continue our 
momentum in improving our acquisition workforce skills.
    We are ensuring the Air Force continues to have war-winning 
technology through the careful and proactive management of our science, 
technology, engineering, and mathematics (STEM) workforce and improving 
our means to attract and recruit future innovators for the Air Force. 
Properly funding our science and technology laboratories enables them 
to continue discovering, developing, and demonstrating high-payoff 
innovations to address the changing strategic environment and sustain 
air, space, and cyberspace superiority. Therefore, the Air Force's 
budget protects science and technology funding as a share of our total 
resources.
    Science and technology investments are also a key toward enhancing 
our energy security and meeting our energy goals. The Air Force is 
requesting more than $530 million for aviation, infrastructure, and 
RDT&E energy initiatives in fiscal year 2013 to reduce energy demand, 
improve energy efficiency, diversify supply, and increase mission 
effectiveness. A focus of these initiatives is to improve our energy 
security by diversifying our drop-in and renewable sources of energy 
and increasing our access to reliable and uninterrupted energy 
supplies. We are investing more than $300 million in energy RDT&E, 
which includes $214 million for the fiscal year 2013 Adaptive Engine 
Technology Development (AETD) Initiative. This initiative will build 
upon the Adaptive Versatile Engine Technology (ADVENT) effort to reduce 
energy consumption and improve efficiency and reliability of future and 
legacy aircraft.
    We are continuing to support an important aspect of our readiness 
posture through weapons system sustainment, the requirements for which 
have grown due to the complexity of new aircraft, operations tempo 
increases, force structure changes, and growth in depot work packages 
for legacy aircraft. We are mitigating overall WSS growth through 
efficiency efforts and requirements reviews. WSS funding through 
overseas contingency operations (OCO) requests remains critical while 
we continue to be engaged in these global operations. For fiscal year 
2013, we are seeking $11.6 billion in WSS (including OCO). We are 
committed to retaining three strong organic depots. In fiscal year 
2012, we are investing approximately $290 million in new technologies 
and infrastructure in all of our depots. Although we may have a short-
term challenge to meet the title 10, section 2466 Depot 50/50 Rule 
requirements due to force structure changes, we have a robust plan in 
place to perform organic repair for future weapon systems like the KC-
46A.
    As noted earlier, Air Force continues to emphasize the importance 
of maintaining readiness in support of our FHP. The Air Force's $44.3 
billion fiscal year 2013 operations and maintenance request supports 
1.17 million flying hours for new pilot production, pilot development, 
maintenance of basic flying skills, as well as training of crews to 
support combatant commander priorities.
    Facility sustainment, restoration and modernization, and MILCON are 
essential tools for providing mission capability to our warfighters. 
The $441 million in MILCON funding, a $900 million decrease from fiscal 
year 2012 enacted levels, represents a conscious decision to take a 
deliberate pause in MILCON investment. During this pause, we will 
maintain funding levels for facility sustainment at $1.4 billion and 
restoration and modernization at $718.1 million. We will continue to 
fund the most critical construction priorities of our combatant 
commanders and the Air Force, including projects aligned with weapon 
system deliveries--supporting beddowns for the F-22, F-35, HC-130J/C-
130H, and MQ-9. In addition, our investment funds some much-needed 
support to our airmen, with $42 million in dormitory recapitalization.
                               conclusion
    Given the continuing complexity and uncertainty in the strategic 
environment, and a more constrained fiscal environment, DOD and Air 
Force resources are appropriately targeted to promote agile, flexible, 
and cost-effective forces, and to mitigate strategic risks. The fiscal 
year 2013 Air Force budget request reflects the extremely difficult 
choices that had to be made that will allow the Air Force to provide 
the necessary capability, capacity, and versatility required to prevail 
in today's and tomorrow's wars, prevent and deter conflict, and prepare 
to defeat adversaries and succeed across the range of potential 
military operations--all the while preserving and enhancing the All-
Volunteer Force. Additional reductions would put at risk our capability 
to execute the new strategic guidance.
    We are confident in our airmen and their families. They are the 
best in the world, and we rely on them to meet any challenge, overcome 
any obstacle, and defeat any enemy--as long as they are given adequate 
resources. As they have time and again, our airmen innovators will find 
new and better ways to approach future military challenges across the 
spectrum of domains and against nascent threats. We are committed to 
excellence and we will deliver with your help. We ask that you support 
the Air Force budget request of $110.1 billion for fiscal year 2013.

    Chairman Inouye. Thank you very much.
    General Schwartz.
STATEMENT OF GENERAL NORTON A. SCHWARTZ, CHIEF OF STAFF
    General Schwartz. Mr. Chairman, thank you. Vice Chairman, 
members of the subcommittee, just a brief addendum to the 
Secretary's comments, if you would allow me, on military 
compensation.
    I would appeal to the subcommittee, Sir, to carefully 
consider those initiatives in our budget proposal that begin to 
tackle escalating personnel costs: compensation, healthcare, 
and retirement. Among all the other challenges facing us, the 
reality of fewer members of the Armed Forces costing 
increasingly more to recruit, train, and retain for promising 
careers, I think, is the monumental Defense issue of our time.
    Our inability to address this issue properly will place 
other areas of the budget, including force structure and 
modernization, under yet more pressure, forcing out needed 
military capability, at a time when we already are right sized 
for the likely missions ahead.
    Sir, we look forward to your questions.
    Chairman Inouye. Thank you very much. If I may, Secretary 
Donley, your budget request proposes to terminate or 
restructure a significant number of programs and force 
structure which were funded in the fiscal year 2012. Now, can 
you provide this subcommittee some assurance that the Air Force 
is not ramping down its activities until we act on the fiscal 
year 2013 Defense bills?
    Mr. Donley. Yes, Sir, I can. Our guiding principle is that 
we will not take any irreversible actions before the Congress 
has had a chance to review and approve, or adjust, the 
proposals made in the President's budget. There is a different 
situation with respect to each program. We have some programs, 
such as the Global Hawk, for example, Block 30 capability, that 
has already been fielded. Some aircraft are in procurement, and 
then there were dollars appropriated for additional procurement 
beyond that.
    So, at appropriate points in contracts, we are taking 
pauses to slow down but are taking no irreversible decisions. 
The one exception to that that I mentioned in my statement is 
the Defense Weather Satellite System, which the Congress 
actually terminated in fiscal year 2012. So, we have taken 
steps to terminate that program.
    Chairman Inouye. In your fiscal year 2013 budget request, 
you're cutting down the size of the Air Force personnel by 
9,900. Now, it will take place in this fiscal year 2013. What 
force-shaping tools are you using to make these reductions?
    Mr. Donley. Sir, we appreciate the support of the Congress 
in the last year to provide additional force-shaping tools for 
the Air Force and for the rest of the uniform services to 
adjust, as required, the size of our forces. We have been very 
aggressive in the last couple of years to get down the size of 
the Air Force. Our Active Duty has been over strength, at one 
point, by up to 5,000 or 6,000 personnel. So, we've taken 
aggressive action in the last 2 years to get down to authorized 
levels.
    We will await the outcome of the congressional 
deliberations, but at this point we are hopeful that we can 
avoid potentially adverse force-shaping methods going into 
fiscal years 2013 and 2014. We're still not sure, but I think 
we're well-positioned, given the actions we've taken in the 
last couple of years.
    Chairman Inouye. General Schwartz, do you have anything to 
add?
    General Schwartz. Sir, I would just reiterate that at the 
moment it appears we will not have to use involuntary measures, 
that the voluntary incentives that are available, including 
those recently approved, will serve the purpose.
    Chairman Inouye. Mr. Secretary, General Schwartz, I have 
several other questions, but because of the legislative 
schedule, I'd like to submit them for your consideration. May I 
now recognize the Vice Chairman.
    Senator Cochran. Mr. Chairman, my question is a follow-on 
to your first question. It seems that the Air Force may be 
getting ahead of the Congress here on making decisions to shut 
down operations of one kind or another, in anticipation of cuts 
that will be approved in the budget, but which have not yet 
been debated or reviewed carefully so that it will be ready to 
make any announcements.
    Are any of these decisions that you've been making to shut 
down operations, like at Meridian, Mississippi, and other 
places, final decisions, or when do you consider that to become 
a final decision?
    Mr. Donley. Well, certainly, we need congressional action 
on the fiscal year 2013 to confirm a way forward in these force 
structure adjustments. At the same time, we'll be frank with 
the subcommittee that many of our force structure adjustments 
are frontloaded to fiscal year 2013. So, we do need to continue 
the planning that would allow us to implement our proposals, 
should you approve them. So, we will need to go forward with 
planning, but, again, the Congress has the final say on next 
steps.
    Senator Cochran. So, I understand from that that operations 
are not going to be affected in the foreseeable future, or 
during this next fiscal year, necessarily, unless the Congress 
approves it. Is that what I understand you to say now?
    Mr. Donley. That's correct. The operation of the Global 
Hawk Block 30, the operation of the C-27s that have been 
delivered, those, for example, continue.
    Senator Cochran. Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Alexander.

                  STATEMENT OF SENATOR LAMAR ALEXANDER

    Senator Alexander. Thank you, Mr. Chairman. Mr. Secretary 
and General Schwartz, thank you for being here.
    General Schwartz, we met a couple of years ago, and we 
talked about the C-17s, and how to get them to Memphis and 
replace the aging C-5As. You're now on a path to do that, 
according to your proposal. As I understand it, the C-17s will 
be relocated in fiscal year 2013. What's the exact timeline for 
getting the C-17s to Memphis?
    General Schwartz. I would like to get you the exact 
timeline for the record, if I may, but I think that is a 
reflection of a larger effort that's under way to reshape the 
airlift force by retiring, in terms of the big aircraft, the 27 
remaining C-5As and repopulating with C-17s and/or the re-
engined C-5s across the fleet.
    [The information follows:]

    When the fiscal year 2013 President's budget was being developed, 
the Air Force determined that the Tennessee Air National Guard's 164th 
Airlift Wing at Memphis would convert from C-5As to C-17As, completing 
an action initiated during the fiscal year 2012 President's budget 
request. Memphis receives the first four C-17A aircraft in fiscal year 
2013, with the remaining four aircraft arriving in fiscal year 2014. 
The schedule was planned around the transition between missions, 
accounting for C-5As retirements to make room for C-17As, as well as 
allowing for the retraining of aircrew and maintenance personnel. C-5As 
are planned to complete retirements from Memphis by the end of fiscal 
year 2014.
    Air Mobility Command will work closely with the Air National Guard 
to ensure the most effective plan is implemented, adjusting the arrival 
plan accordingly based on the specific details of the C-5A retirement 
schedule and progress of C-17A training for Memphis personnel.

    Senator Alexander. Well, you have come to a conclusion that 
I certainly support, in recognition of the unusually good 
facilities you have in Memphis, and the same kind of conditions 
that the FedEx super hub, and the world runway, and others 
have. It makes a lot of sense to do that. And I'd be interested 
in any further detail about the timeline for that action.
    Let me ask you a couple of questions, and then I'll stop, 
so other Senators can have their time. I want to ask you about 
the Arnold Engineering Development Center in Tullahoma, 
Tennessee. You've announced a restructuring of the Air Force 
Materiel Command. You're going to reduce the number of them. 
You're going to save some money doing that, eliminate civilian 
positions, and the Arnold Center, as a part of that 
restructuring, will be renamed. It will be reported to the Air 
Force Test Center at Edwards Air Force Base in California. All 
of which seems to me, again, to make a lot of sense, in terms 
of the demands that you have to reduce the size of what you're 
doing.
    I wanted to express my support for your decision. Even 
though I know it's a difficult one, it ought to help the 
testing mission, and I believe it makes good sense. So, I know 
that sometimes as you go through these restructurings, you get 
expressions of lack of support. I want to give you one of 
support. And I want to ask you what you can tell me about the 
timeline for implementing the Air Force Materiel Command 
realignment plan. In other words, when do you expect Arnold to 
start reporting to Edwards Air Force Base in California?
    General Schwartz. Sir, that is a fiscal year 2013 
initiative, and so it would happen during the fiscal year, and 
we've got phased approaches. As you know, we're taking 10 
direct reports to the Air Force Materiel Command Commander down 
to 5, and that will be done in a phased basis, and it will also 
include the transitions of supervision, in some cases, from, 
for example, two stars to one star to address the reduction in 
general officer manning that we've been mandated to undertake.
    So, once again, Sir, with your permission, we'll give you 
the exact timeline with respect to the test center 
specifically, but it's a fiscal year 2013 undertaking.
    [The information follows:]

    The timeline for implementing the Air Force Materiel Command 
realignment comprises a transition period from early June 2012 through 
September 30, 2012. During this transition period the command will 
begin to shift to a new framework and refine processes necessary to 
operate in the new construct. This transition period is necessary to 
work through the many required changes in order to successfully meet 
the initial operating capability objectives. Initial operating 
capability includes completion of organizational alignment, new 
processes established, and personnel in place to support the new 
structure. Full implementation execution will commence on October 1, 
2012 (fiscal year 2013) with completion of stand-up activities of the 
new Air Force Materiel Command five center organization. The re-
designation of the Arnold Engineering Development Center to the Arnold 
Engineering Development Complex is planned to occur coincident with 
leadership change in the July timeframe. Full alignment to the Air 
Force Test Center (re-designated from Air Force Flight Test Center) 
will be complete by October 1, 2012.

    Senator Alexander. Thank you. Thank you, gentlemen. One 
last question. I was talking with Colonel Brewer, who's the 
base commander at Arnold. Looking way down the road, he 
reminded me that the facilities of the base are 50 years old. 
And I know at a time of less money and restructuring that it's 
tempting not to spend money on long-term planning for 
maintenance and modernizing, but we all know, as I'm sure you 
do, that there has to be a long-term plan to ensure that 
critical testing facilities such as that are at a very high 
level with cutting-edge technologies.
    What plans have you undertaken to make sure that the 
testing facility there remains capable of its mission over the 
long-term.
    General Schwartz. Sir, as you know, there's a number of 
unique facilities at Tullahoma.
    Senator Alexander. Yes.
    General Schwartz. Including the high-speed test tunnels, 
and so on, and so forth. And among other things, we have 
invested in energy initiatives at Tullahoma in order to reduce 
the costs of operation there and to have a more efficient 
footprint.
    As you are aware, many of these test facilities are very 
energy intensive, and one of those major efforts under way is 
not only to make them modern in terms of their test capacity, 
but importantly, how we manage the energy consumption at that 
installation.
    Senator Alexander. Thank you, Mr. Chairman, and thank you, 
General.
    Chairman Inouye. Thank you, Senator Alexander.
    Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Thank you, Mr. Chairman, and Mr. Secretary 
and General, thank you for your testimony.
    As I understand it, the downsizing of certain assets is the 
consequence of the Office of the Secretary of Defense (OSD) 
decision to basically scale back to be able to engage in one 
full-time combat operation with a sort of a hold on a second 
rather than the two full-effort strategy that we've been under. 
And that has had an effect, I believe, on your decision, 
relative to the A-10s, apparently.
    But setting that strategy aside for another day, I want to 
ask a question about the A-10s. As you know, the 122nd Fighter 
Wing in Fort Wayne, is home to those A-10s. And under the plan, 
that would be switched to an ISR platform in the future.
    I know that the Guard has submitted a counterproposal, 
which meets your goals. They even said, look, we understand 
these cutbacks are necessary, reductions are necessary, and so 
forth, but that counterproposal provided, I think it was based 
on the premise that when those A-10s are not in combat, they 
have to be deployed not overseas, but to some base, whether 
it's Active, or Reserve, or Guard. And in so doing, when 
they're not deployed, there's significant cost savings for 
that, and I think the 122nd has demonstrated that pretty 
effectively; less than one-third of the cost, if it's based on 
an active base.
    My question is: Have you been able to review that proposal? 
Have you come to a conclusion on it? If so, what is that 
conclusion, and what's the justification for it?
    Mr. Donley. So, as you alluded to, Senator, the Council of 
Governors approached the Secretary of Defense and asked if he 
would be open to suggestions for how to adjust the fiscal year 
2013 President's budget. The Secretary indicated he would 
entertain suggestions. The Council of Governors did table a 
proposal almost 2 weeks ago, and that has been under review.
    We've met three times with the empowered adjutant generals 
that the Council of the Governors have directed to work with 
us, General Wyatt, and also the Chief of the National Guard 
Bureau, General McKinley. The Chief and I have met now, as I 
said, three times. This work is ongoing, and we've not yet 
reached a conclusion, but we recognize the need to do so in 
time to meet the appropriate congressional markups that are in 
front of us in the next couple of months.
    Senator Coats. Well, I very much appreciate it when you do 
reach a conclusion that we be informed about that. Obviously, 
it affects what has been, I think, rated over, and over, and 
over a very cost-effective unit, the 122nd at Fort Wayne. 
Again, we're not chaining ourself to the fence here and saying 
you can't touch this for any reason, whatsoever. We understand 
the need to make these reductions, but if there is a means by 
which makes sense, help you meet your goals, and save the 
funds, we certainly would like to have you give that very, very 
serious consideration.
    General, anything you might want to add to that?
    General Schwartz. Sir, we are doing just exactly that, and 
we'll be bringing the conclusions of our work to the attention 
of the more senior people in the department within days.
    Senator Coats. Good. Well, I've always tried to be 
supportive, whether it's base closings or anything else, in 
terms of the most cost-effective efficient military, and would 
be happy to work with you on that. And I thank you very much 
for your response.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you, Senator Coats.
    Senator Johnson.

                    STATEMENT OF SENATOR TIM JOHNSON

    Senator Johnson. Secretary Donley, General Schwartz, thank 
you, and welcome, for being here today.
    Secretary, the Air National Guard is a cost-effective force 
of experienced airmen. Given our difficult fiscal situation, 
why does the budget request propose disproportionate cuts in 
aircraft and manpower for the Air National Guard?
    Mr. Donley. Sir, the adjustments in our manpower were 
driven by adjustments in the force structure itself, and the 
fighter force structure, and in the mobility force structure. 
Those changes were prompted by the adjustments and strategic 
guidance that we received that asked us to reorient 
geographically toward, certainly, the sustaining missions in 
the Middle East, but also look more carefully at Pacific 
priorities, going forward, and recognizing that the overall 
size of the ground forces are going down.
    So, the force structure adjustments that we proposed were 
connected to those strategic judgments and the direction from 
the department that we could take additional risk in the 
fighter force structure. And as we looked at the fighter force 
structure and the mobility force structure as well, the key 
issues for us were how to develop on a total force basis the 
right balance between Active and Reserve component 
capabilities. Not just to husband reserve capabilities, as a 
strategic reserve back in the United States, but on a total 
force basis, how to integrate the Reserve components and the 
Active forces with the ongoing commitments of the United States 
Air Force 24/7, 365, and also to be able to meet surge and 
sustaining requirements. And this is what brought a closer 
attention to the Active and Reserve balance.
    The size of our Air Force now is so small, as a result of 
the proposals that we're making here, we will be the size of 
the Air Force in 1947, when this Air Force was first created, 
on the Active-Duty side. So, as we go forward together, our 
Reserve and Active components have to be more closely 
integrated, and we can't get either side of this out of balance 
going forward.
    I'd ask the Chief to add to this.
    General Schwartz. The only thing I would add to the 
Secretary's comments is one of the principle considerations was 
what will the activity level be for deployment requirements 
that's both rotational and potential surge contingency 
requirements. And with a smaller force, you have to assure that 
you can spread that activity level properly across the entire 
inventory, and that suggested that we needed to get the balance 
so that the Active Duty would not be more busy than what we 
call a deploy-to-dwell ratio of 1 to 2. In other words, 6 
months deployed, 1 year home, and for the Reserves, not less 
than 1 to 4, ideally 1 to 5. And the reason is, if we overuse 
any of these components, especially when the economy turns up, 
we will end up in a situation where Active Duty will not stay 
with us, and on the Guard and Reserve side, perhaps employers, 
and family members, and so on will see the activity level on 
the Guard side as too active-duty like. And so, this was trying 
to get the mix right, so that we could maintain the anticipated 
activity level without overusing either of the components, Sir.
    Senator Johnson. General Schwartz, we look forward to 
hosting you at Ellsworth Air Force Base in May to celebrate the 
70th anniversary of the base. Ellsworth has a proud history and 
will continue to play an important role for the Air Force.
    Looking to the future, is the Air Force close to issuing 
the record of decision on the Powder River Training Complex?
    General Schwartz. Yes, Sir, we are. We got numerous 
comments from all interested parties on the environmental 
impact statement, some of which were not favorable. So, we took 
a brief pause to digest those comments and make sure that the 
requirements that we had were appropriate and justified. We 
have concluded that work, so the record of decision is 
imminent, and we will publish that in the appropriate fashion, 
Sir.
    Senator Johnson. Thank you.

                       C-130 MOVE FROM FORT WORTH

    Chairman Inouye. Thank you very much.
    Senator Hutchison.

               STATEMENT OF SENATOR KAY BAILEY HUTCHISON

    Senator Hutchison. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary and General Schwartz.
    Many of us were stunned about the plan that you have to 
remove eight of the C-130s from the Fort Worth Joint Base, from 
the 136th Airlift Wing, and to move those to Great Falls, 
Montana. That 136th has been crucial for the evacuation of 
victims of hurricanes and storms. In fact, all five Governors 
of States on the gulf coast sent a letter to the President, 
strongly asking that this relocation not occur. They said, 
``Losing the C-130s takes away a powerful airlift asset for 
saving the lives of Gulf Coast State citizens.''
    Now, these are Governors who have relied heavily on the 
136th Airlift Wing in response to Hurricanes Gustav and Ike, in 
2008, Dean in 2007, and Hurricanes Katrina, Rita, and Wilma in 
2005. In fact, the 136th has flown 423 sorties in response to 
storms, have safely evacuated more than 3,000 victims, and 
delivered 939 tons of emergency aid. So, there will be no Guard 
C-130s on the entire gulf coast, which we know is one of the 
key places where hurricanes certainly hit, but we also have 
tornado alley in that area.
    In addition to that, General Schwartz, the Air Force has 
requested a $3 million earmark in fiscal year 2013 for 
operations and maintenance to fund a temporary shelter for 
these C-130s in Montana. The Air Force has also requested $20 
million in military construction funding for fiscal year 2014 
for conversion of facilities from F-15 to C-130s. The DOD said 
in the request that the C-130s cannot fit inside the current 
hangar and perform maintenance, thus negatively impacting the 
C-130 mission.
    Until this proposed project is completed, the lack of a 
fuel cell control facility will also cause maintenance delays, 
forcing fuel cell work to be done on the ramp in harsh winter 
conditions. You responded, General Schwartz, to Congresswoman 
Kay Granger in a March 6 hearing that the Air Force has not yet 
completed all the work on this.
    I'm hoping you're going to say today that it is still being 
assessed and possibly for a rethinking of this kind of a 
transfer, when these have been so vital to an area that is, 
really, the area of the country that has the most disasters and 
emergency needs, and this 136th is specifically trained to be 
the immediate response for these Governors that use the Wing.
    So, my question is: Are you reconsidering, and if not, why 
not?
    General Schwartz. The short answer is yes, we are. In fact, 
part of the Council of Governors' proposal was an adjustment to 
our original recommendations. So, as the Secretary indicated, 
it certainly is under consideration.
    I would only offer this context, though. While it is true 
that there are no Air National Guard C-130s in the gulf 
region----
    Senator Hutchison. There are Reserves.
    General Schwartz [continuing]. There are numerous other C-
130s.
    Senator Hutchison. Yes.
    General Schwartz. Both Active Duty and Reserve. And that 
the fiscal year 2012 National Defense Authorization Act enables 
the Active Duty now to provide support to civil authority much 
like the interstate compacts that exist, you know, between the 
States for title 32 application of the Air National Guard.
    Nonetheless, the short answer to your question is yes, it 
certainly is under consideration, and for some of the reasons 
you mentioned, and others as well.
    Senator Hutchison. Did you have a comment, Mr. Secretary?
    Mr. Donley. I just wanted to reinforce that yes, we are 
looking at this in the context of the Council of Governors' 
proposal, but to reiterate, as we go forward, and the military 
becomes stronger, we need to think about the most efficient use 
of our Armed Forces across components. And we know this has 
been an issue for the Guard. But in the gulf region, we have 
Active, Guard, and Reserve airlift. We have about 100 either C-
130-like or helicopter-like capabilities that are available. 
And we have done the analysis on support to hurricanes and 
tropical storms on the gulf coast. And the numbers show that 
the Active Duty actually ends up flying in support of the 
States, and the Federal disaster support planes have flown 
fully one-half or more of those kinds of missions. So, we are, 
as a total Air Force, available to support the Governors' 
needs, when there is a natural disaster.
    Senator Hutchison. Well, let me just say that I do think 
that the guard is the immediate call, that is, all of the 
training with the Governors is guard, and they have been very 
successful, and immediate. They give the immediate response.
    And second, as the former chairman and ranking member, with 
my colleague, Senator Feinstein, of the Military Construction 
Committee, I know that when you have facilities, and then you 
talk about moving, and constructing all new facilities, really, 
because they're not prepared for it, and then you have the 
operations and maintenance increase, I just would hope you'd 
look at the efficiencies there, where you've got the support at 
the joint base, also a part of the policies of the DOD to have 
joint bases that are more efficient. It's a Navy lead base, but 
Air Force has both fighter wings, as you know, a fighter wing, 
as well as the C-130.
    So, I'm just saying it's hard for me to see an efficiency 
argument here, when if it ain't broke, don't fix it sort of 
attitude. So I'm hoping you will reconsider, for whatever 
reasons that are the right reasons, and keep this very vital 
asset where it's performed so well. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Inouye. Thank you.
    Senator Feinstein.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. Thank you very much, Mr. Chairman. If I 
may, gentlemen, I'd like to follow-up on Senator Hutchison's 
question, because it also affects Fresno, California, and the 
144th. It's my understanding that F-16s are being replaced with 
F-15s. Is that transfer on course, General?
    General Schwartz. It is, Ma'am.
    Senator Feinstein. And will the 144th remain?
    General Schwartz. It will, with the new F-15 equipage.
    Senator Feinstein. So, in terms of Fresno, which is a 
community that is very upset about it, it will be a 
substitution, and as far as the community is concerned, there 
will be a continuation.

                   F-16 TO F-15 CONVERSION AT FRESNO

    General Schwartz. The Air Sovereignty Mission, which the 
wing has performed from Fresno, will continue, except with F-
15s vice F-16s, which, frankly, are a better fit for that 
particular mission.
    Senator Feinstein. Well, that is your department, and if 
you say so, I'm certainly not one to contest that. As long as 
that feature remains in place, that's excellent.
    Secretary Donley, I wanted to ask you, on page 19, in your 
written testimony, and I'm sorry, I missed your oral testimony, 
you make this statement, ``The Air Force must procure our space 
systems at the lowest cost possible, while providing assured 
access to space.'' That's a direct quote. I'm very concerned 
that this is not the case, that with the United Launch Alliance 
(ULA) contract, details of which are apparently not put out, 
that there is no competitive bidding, and that there is a 
company, a California company, that could competitively bid, 
come 2014, and reduce the per-unit cost per ULA booster core 
from $420 million to $60 million, over a contract term; 
therefore, saving literally billions of dollars.
    The rockets are all produced in this country, rather than 
one-half of the rockets being produced outside the country, 
from the joint venture between the two big aerospace companies.
    I have felt this way in the Energy and Water Development 
Subcommittee. I chair that subcommittee, and we've had this 
problem with small nuclear reactors being limited, just the two 
big ones for licensing help. I see the same thing happening 
here. Instead of being able to open the process for 
competition, the big companies are chosen, and it's a long 
contract. And I understand they tell you, well, if we don't 
have the long lead, the price will go up. But then you have a 
company, relatively new, have done a lot of testing, has other 
contracts, would like to participate, and cannot.
    Could you respond to that?

             EVOLVED EXPENDABLE LAUNCH VEHICLE COMPETITION

    Mr. Donley. Absolutely, Senator. I think we have a good 
site picture here for space launch. We have been concerned 
about the cost of the Evolved Expendable Launch Vehicle (EELV) 
program and ULA's performance. We believe we've been paying 
more than we need to for space launch.
    The flipside is that we've had a string of successful 
launches, and we have repaired some of the previous problems 
and issues we had with assured access to space, and lost 
payloads a few years back. So, this has been a long, very 
focused effort to develop assured access, and to increase the 
reliability and sustain the reliability of space launch.
    Now, we're at a point where we've achieved that with the 
EELV, but we'd like to get a better price for that work. So, 
we've had a should-cost study completed and other studies under 
way for some period of time, to better understand the cost 
basis of the EELV contract, and to renegotiate that contract 
going forward. And we are in the process of doing that. We will 
have an acquisition strategy ready later this spring that 
provides more flexibility for the government, and we think 
better savings for the taxpayer.
    [The information follows:]

    The Air Force plans to release a request for proposal that will 
help properly inform the Government decision on the quantity and length 
of the first phase; and then award a contract based on analysis of the 
most advantageous approach to the Government. The Air Force has not 
determined a final quantity or duration for the contract starting in 
fiscal year 2013. The Air Force believes it is essential to have more 
fidelity in the Evolved Expendable Launch Vehicle (EELV) pricing 
strategy before making a long-term contractual agreement. In order to 
validate the most advantageous production rate and commitment period, 
and to use maximum leverage in negotiations, the government will 
require the contractor to propose a range of fixed prices for various 
rate and commitment options. The decision on the specific contractual 
commitment will be balanced among price, operational requirements, 
budget realities (including all fiscal law constraints), and potential 
for competition. Requirements above the contract commitment will be met 
through a full-and-open competition among all certified providers. 
While United Launch Alliance is currently the only responsible source 
certified to launch EELV class payloads, research indicates there are 
potential new entrants; however, the earliest timeframe to meet all 
EELV-class launch requirements appears to be fiscal year 2016-2017.
    In order to facilitate the certification of potential New Entrants, 
the Air Force has identified two opportunities that providers may bid 
on--the Deep Space Climate Observatory mission (currently scheduled for 
late fiscal year 2014) and the Space Test Program-2 mission (currently 
scheduled for late fiscal year 2015), which were funded by the Congress 
in fiscal year 2012. These EELV-class missions have a higher risk 
tolerance and will provide an opportunity for potential New Entrants to 
prove their capability for certification.
    When the phase I block buy expires, assuming new entrants are 
certified, we will have a full and open competition for launch services 
for the second Phase.

    Mr. Donley. At the same time we're working on the EELV side 
we've been working with National Aeronautics and Space 
Administration (NASA) and the National Reconnaissance Office 
(NRO) to develop a joint process through which new entrants 
into the space launch business gets certified by having 
opportunities to fly DOD payloads or other Government payloads 
of perhaps lower risk or lesser value, in order to prove out 
the reliability of their systems.
    And so, we agreed at the end of last year on new entrant 
certification criteria. We have a process for doing that. In 
fiscal year 2012, we will go out on contract for two payloads 
that are being set aside for the new entrants, and so that work 
will continue through this spring. But, our objective is to get 
the cost of EELV down, and to bring in new competitors into 
space launch that will help to continue to provide more 
competition in this area.
    Senator Feinstein. Well, I thank you for that answer. I 
just need time to analyze exactly what it means. Let me just go 
to basics. You know what I'm talking about. Will SpaceX be able 
to compete?
    Mr. Donley. I believe we've addressed the issues raised by 
the new entrants, including SpaceX, in the work that we've done 
over the last year. So, I think there is an open path, and I 
believe SpaceX and the other new entrants understand the 
opportunities available, and what they will need to do to be 
certified for EELV class launches in the future, so we can 
bring competition into this work.
    Senator Feinstein. And when would that competition begin? 
When would the first year be when a new company can compete?
    Mr. Donley. Well, the initial work this year is to identify 
less-risk, lower-value payloads for these new entrants to 
demonstrate their launch capabilities. And that will happen 
this year. Those launches, I believe, are scheduled for 2014 
and 2015. So, this has to play out over a few years.
    Senator Feinstein. Okay.
    Mr. Donley. That work is under way.
    Senator Feinstein. Let me ask you specifically. In 2014 and 
2015, will there be an open competition?
    Mr. Donley. Let me get back to you on the record for that, 
because we do not have a predictable path for exactly when the 
new entrants will be certified. And we have not yet completed 
the acquisition strategy for EELV, going forward. Although, 
it's our intent to build into that acquisition strategy the 
flexibility for the Government to determine at what point 
competition comes in.
    Senator Feinstein. Right.
    Mr. Donley. So, there's some unknowns here.
    Senator Feinstein. Well, I really appreciate that, Mr. 
Secretary. And what I'm told is, and this may be wrong, that 
they're under the impression they cannot compete for the rest 
of the decade. That's tragic, because it could be, I'm not 
saying it would be, but it could be a savings of many billion 
dollars, if they're competitive.
    Mr. Donley. So we'll continue to look.
    Senator Feinstein. All right. I appreciate that. General, 
would you like to make a comment?
    General Schwartz. Just quickly, Ma'am. And the Secretary is 
the real expert here, but two important points. There are two 
payloads that the new entrants will have an opportunity to fly. 
That's the Discover mission and the Space Test Program II 
payload.
    The bottom line here, from my point-of-view, is I don't 
want to put a $1.5 or $2 billion satellite atop a rocket for 
the first flight. I think it's important for us to manage risk. 
We would do the same thing on the air-breathing side. So, this 
needs to be done in a deliberate way, where the new entrants 
demonstrate the reliability of their platform so we can get 
that $2 billion satellite into orbit.
    Senator Feinstein. I think I understand. I'm trying to 
understand. Again, my interest is a competition, where 
everybody can compete, and the Government can hopefully save 
some money. So, Mr. Secretary, I appreciate your comments, and 
I trust we can stay in communication, and you'll let me know.
    Mr. Donley. Absolutely.
    Senator Feinstein. Thank you very much. Thank you, Mr. 
Chairman.

                         EIELSON AIR FORCE BASE

    Chairman Inouye. Thank you.
    Senator Murkowski.

                  STATEMENT OF SENATOR LISA MURKOWSKI

    Senator Murkowski. Thank you, Mr. Chairman.
    Mr. Secretary, General, thank you for being with us. Your 
leadership greatly appreciated. And General, I thank you for 
your recent visit to the interior of Alaska. As we discussed 
with community leaders, the proposal to move the F-16 aggressor 
squadron from Eielson Air Force Base (AFB), we know that we've 
kind of seen this movie before, that this was suggested back in 
the 2005 base realignment and closure (BRAC), a great deal of 
discussion, ultimately, that the decision was made not to move 
that aggressor squadron. Now, the proposal is before us again.
    I know that you have seen the chart there that demonstrates 
Alaska's geographic position in the world. In fact, I think you 
probably had that in your office when you were in Alaska, so I 
don't need to speak to that. But, I still have a very difficult 
time understanding a proposal that would somehow possibly 
decrease our presence in Alaska, when the administration says 
that we're going to focus our attention on the Asia and the 
Pacific.
    And I continue to press for the answer from the Air Force 
as to its intentions with Eielson AFB to continue that 
installation as a fully functioning base that allows the 168th 
Air Refueling Wing to fully conduct its critical refueling 
mission as part of the administration's Asia-Pacific focus. I 
guess I would like to hear that assurance that Eielson AFB will 
continue in that very, very significant role, and would ask a 
series of questions then, in terms of what we might anticipate 
with the site survey, going forward.
    General Schwartz, I have sent a letter asking that with 
this site survey that will be conducted, I understand now in 
April that the team include a general officer and also a 
provision to consult with the Alaska National Guard, since the 
plans there at Eielson AFB will significantly impact this 24-
hour, 365-day-a-year refueling mission with the Guard.
    So, I'm wondering where we are on that request with the 
site survey coming forward, and again, a reaffirmation of that 
very critical role that Eielson AFB has historically played for 
the Air Force.
    General Schwartz. Yes, Ma'am. Clearly, the intent is to 
support in its entirety the 168th mission and not just the 
168th. But there are other activities at Eielson AFB, the 
Arctic Training School, and so on, and so forth, that will 
continue, and will not be diminished by the relocation of the 
F-16s or the associated reduction of base operating support 
that's tied to that relocation.
    I can't commit today to a flag officer for the survey, but 
clearly, the interaction will include the Guard and all other 
stakeholders that have an interest, obviously, in Eielson AFB.
    And, Ma'am, as you know, not only is Eielson AFB the home 
for the 168th, it is the access point for the range area just 
to the west, and so on. And that will continue to be the case. 
And 23 million gallons of jet aviation fuel stored there is a 
significant asset that clearly is in the back of our mind 
continuously, especially with the new emphasis and the strategy 
on the Asia-Pacific.
    Senator Murkowski. Well, let me ask you about the cost 
savings. And again, I remind all that we've looked at this once 
and determined that the cost savings were simply not going to 
be there.
    The proposal to move the squadron from Eielson AFB down to 
Elmendorf Air Force Base is one that I think is somewhat 
problematic. We've got, currently, at Joint Base Elmendorf-
Richardson (JBER), about 400 soldiers that are already in 
temporary barracks. So, by relocating significant number of 
airmen and their families down into that area, I want to know 
whether or not we have determined what the cost to house these 
new airmen at JBER would be, how and when we would fund that, 
because as you indicated when you were in Alaska, this proposal 
would move forward next summer.
    What level of analysis has been conducted to date with 
regards to the accommodations at JBER? Not only with the 
housing, but the additional infrastructure that may be 
required.
    General Schwartz. As you know, Ma'am, we did not do a site 
survey, and that's the purpose of the undertaking that will go 
off, I think it starts the 6th of April, specifically. But the 
key thing here is that, as you're well aware, there used to be 
three flying squadrons at Elmendorf AFB, and there are two now. 
And in looking at the tabletop level, at the facilities on 
Elmendorf AFB, the conclusion was that both for maintenance and 
ops, and base support, that it was possible to reabsorb a third 
squadron and to do that efficiently. With regard to military 
family housing and/or dormitory space, that is a specific 
output from the survey team on the ground, and clearly, they 
will give us very precise insights in that regard.

              JOINT BASE ELMENDORF ENVIRONMENTAL ANALYSIS

    Senator Murkowski. Would moving the F-16s from Eielson AFB 
to JBER require either an environmental analysis or an 
environmental impact statement (EIS)? And if so, do we have any 
handle on what that cost might be? And then, again, how we deal 
with the funding and the timing again of all of this, if the 
Air Force is to move forward with the proposal as it is on the 
table now.
    General Schwartz. Given that the most current environmental 
impact for Elmendorf AFB was addressed at the three-squadron 
level, the presumption was that it would not require a follow-
on study. That, again, is another output from the survey team 
to confirm that that is, in fact, the case. And so, again, this 
2-week effort coming up next month is important in lots of 
dimensions.
    Senator Murkowski. Well, I would certainly concur with 
that. And again, I would repeat my request, that you consider 
sending a general officer as part of that site survey. I think 
we recognize that it's not just looking at the ledger, the 
balance sheet there, from a cost analysis, it is incorporating 
so many of those intangibles that I think is important. The 
strategic asset that we have up north, sometimes that doesn't 
necessarily fit into those neat boxes, as you do a cost benefit 
analysis. And having that level of oversight, I think, would 
allow for greater comfort with the process, and, hopefully, a 
greater transparency with that. So, I would hope that you would 
consider this. We're looking at it, again, with a great deal of 
anxiety for the interior, but we need to know that we can work 
with you on that.
    Thank you, Mr. Chairman. I know that my time is expired, 
and we've got a vote, I understand. So, thank you. And thank 
you, gentlemen.

                     ADDITIONAL COMMITTEE QUESTIONS

    Chairman Inouye. Thank you very much. Mr. Secretary and 
General Schwartz, on behalf of the subcommittee, I thank you 
very much for your service to our Nation and for your 
testimony, and we look forward to working with you in the 
coming months.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
        Questions Submitted to Secretary Michael B. Donley and 
                       General Norton A. Schwartz
               Questions Submitted by Senator Tom Harkin
    Question. What cost-benefit analysis was done by the Air Force to 
determine the savings achieved by closing or reassigning Air National 
Guard and Air Force Reserve units versus Active-Duty Air Force units? I 
understand that different types of units have different fixed costs, so 
if this question needs to be narrowed down, what is the difference in 
cost, over the course of a 5-year cycle, of different types of F-16 
wings?
    Answer. While cost savings are part of the decisionmaking process, 
the most important factor is the Air Force's ability to provide the 
capabilities required by the new Defense Strategic Guidance, 
``Sustaining U.S. Global Leadership: Priorities for 21st Century 
Defense''. This new strategy directs the services to build a leaner, 
more flexible, and technologically advanced force. As a result, the Air 
Force is rebalancing our Total Force to match the capability and 
capacity requirements of the new guidance. The proposed Reserve 
component force structure reductions were determined using a deliberate 
and collaborative process which leveraged careful analytical review of 
warfighting scenarios consistent with the new strategic guidance. Two 
decades of military end strength and force structure reductions in our 
Active-Duty component have changed the Active and Reserve component 
mix, and achieving the appropriate Active and Reserve component mix is 
critical to sustaining Air Force capabilities for forward presence and 
rapid response, as well as meeting high-rate rotational demands with a 
smaller force. Therefore, the Air Force did not believe a cost-benefit 
analysis between the Active and Reserve components for the different 
types of F-16 wings is warranted.
    However, the component mix had to be determined based on the 
``availability rate'' of the two components. As I had recently stated 
to the Air Force Reserve Senior Leaders Conference, ``We place an 
enormous value on the experience provided by the Reserve component, but 
we don't want to shift the warfighting burden to a part-time force. 
This isn't what [the Reserve component] signed up for . . . as we plan 
our Total Force mix, we keep the components' contributions and 
commitments in mind and look to size our Active, Guard, and Reserve 
forces so they can meet their respective roles. If our Active component 
is too small to meet its demands, then we put our Guard and Reserve 
forces in the position of breaking other commitments to employers, 
communities, and families. Alternatively, if our Active component is 
too large, then we would not be taking advantage of the benefits that 
our Guard and Reserve forces have to offer.''
    Question. When conducting a cost-benefit analysis of the costs of 
an Active-Duty Air Force wing versus an Air National Guard or Air 
Reserve wing, do you consider costs that may not be reflected in 
personnel or operations and maintenance costs? For instance, are the 
costs of maintaining on-base housing for Active-Duty units included in 
this analysis? Are the costs of maintaining Department of Defense 
schools for children of airmen to attend included? Are the long-term 
costs of retirement and TRICARE-for-life benefits included?
    Answer. When determining the costs of operating a wing, regardless 
of component, the Air Force accounts for costs outside of personnel and 
operations and maintenance. For instance, the costs of facility 
sustainment, restoration, and modernization are included in any 
analysis. Base operations support costs are also considered. These 
costs include communications infrastructure support and maintenance, 
ground fuels and transportation shipping, contract services, and 
utilities. With regard to housing, the Air Force evaluates the cost of 
operating and maintaining on-base units and Basic Allowance for Housing 
for members not using on-base units. Medical and retirement costs are 
part of our personnel costs.
    Question. What is the annual cost to man, operate and maintain of 
each United States Air Forces in Europe (USAFE) installation? Can you 
compare that to a comparable number of Air Combat Command (ACC) and Air 
National Guard (ANG) installations?
    Answer. The Air Force compared three bases from ACC (Seymour 
Johnson, North Carolina; Shaw, South Carolina; and Moody, Georgia), 
USAFE (Aviano, Italy; Lakenheath, United Kingdom; and Mildenhall, 
United Kingdom) and the ANG (Burlington, Vermont; Jacksonville, 
Florida; and Birmingham, Alabama) and used annual operation and 
maintenance obligations from fiscal year 2011, excluding overseas 
contingency operations funding. Military personnel data has also been 
included for fiscal year 2011. Using this methodology, the below table 
is provided:

                          [Dollars in millions]
------------------------------------------------------------------------
                                                Fiscal year    Aircraft
           Command                   Base           2011         PAA
------------------------------------------------------------------------
USAFE........................  Lakenheath.....        439.6           70
ACC..........................  Moody..........        427.0           64
ACC..........................  Seymour Johnson        414.0           87
ACC..........................  Shaw...........        371.4           72
USAFE........................  Aviano.........        366.5           42
USAFE........................  Mildenhall.....        245.0           15
ANG..........................  Jacksonville...         89.3           19
ANG..........................  Birmingham.....         73.8            8
ANG..........................  Burlington.....         72.6           18
------------------------------------------------------------------------

    The Air Force cautions this kind of comparison does not include the 
differences in missions, location, population, mix of officers, 
enlisted, and civilians, host-nation support, and other variables that 
make such a comparison misleading as to the value of each installation 
to the fight. Additionally, it is important to note that costs for 
USAFE's geographically separated units and smaller units are 
consolidated into the financial reporting of their owning main 
operating bases.
    The permanent, forward basing of aircraft in Europe represents a 
key element of our Nation's defense strategic guidance. It avoids the 
costs and disruption of units by implementing a constant rotation of 
aircraft and personnel from the continental United States.
                                 ______
                                 
            Questions Submitted by Senator Dianne Feinstein
                              global hawk
    Question. Last June, the then Under Secretary of Defense for 
Acquisition, Technology and Logistics, Ashton Carter certified to the 
Congress that the Global Hawk was ``essential to the National 
security''; and ``that there are no alternatives to the program which 
will provide acceptable capability to meet the joint military 
requirement at less cost''. And yet in February of this year, the Air 
Force decided to cancel the program and retire the existing aircraft 
despite an investment of $4 billion. Additionally, my staff was 
informed through Mr. Randall Walden, Director for Information Dominance 
Programs (Office of the Assistant Secretary of the Air Force for 
Acquisition) that you would like to invest another $1.1 billion to 
upgrade U-2 aircraft to keep them flying through 2040.
    Secretary Donley and General Schwartz, how do you explain what has 
changed to cancel this program?
    Answer. Following the Nunn-McCurdy certification in June 2011, a 
reduced requirement where the U-2 is sufficient and a reduced budget 
where the Department could no longer afford to keep investing in RQ-4 
Global Hawk Block 30 drove the divestiture decision resulting in a 
savings of $3.8 billion.
    In September 2011, the Department of Defense (DOD) Joint 
Requirements Oversight Council reviewed recent adjustments in military 
strategy and determined that conventional high-altitude intelligence, 
surveillance, and reconnaissance (ISR) requirements could be reduced. 
The Air Force further determined the U-2, which remains viable until at 
least 2040, was sufficient to meet the reduced requirements. Continued 
increased investment in RQ-4 would be required to field a comparable 
capability to U-2 and was determined to be unaffordable.
    Continued, increased investment in RQ-4 was not warranted given a 
significant reduction in the Department's budget and an alternative 
system, the U-2, is still operationally viable at considerably lower 
total cost over the Future Years Defense Plan (FYDP). Although $3.8 
billion was saved with the decision to divest Global Hawk Block 30, 
$1.3 billion (vice $1.1 billion) was needed to continue to operate and 
sustain the U-2 throughout the FYDP. The net savings to the taxpayer is 
$2.5 billion.
    When the U-2 is employed at its normal operational distance, U-2 
operating costs are comparable to RQ-4 costs. The latest actual costs 
per flying hour data shows that both platforms are operating at $32,000 
per hour.
    Question. The Global Hawk is a multi-imagery aircraft that carries 
Electro Optical/Infra-red (EO/IR), and radar system at all times. 
However, the U-2 is a single imagery aircraft that cannot carry both 
EO/IR and radar sensors at the same time. This seems in conflict with 
your statement regarding the Air Force decision to favor retention of 
multirole platforms over those with more narrowly focused capabilities.
    Do you think the specialized U-2 is the answer to meet our 
Intelligence, Surveillance, and Reconnaissance requirements for the 
next 3\1/2\ decades?
    If you do, how much additional money is required to upgrade and 
sustain these aircraft? How much confidence do you have that an 
aircraft first introduced in 1955 and previously scheduled for 
retirement in 2015 will be able to outperform the Global Hawk?
    Answer. Although an imagery intelligence (IMINT) and signals 
intelligence (SIGINT) sensor cannot be carried simultaneously on a 
single aircraft, the U-2 system is able to perform both missions and is 
considered multirole. In fact, the U-2 is able to currently outperform 
the Block 30 Enhanced Integrated Sensor Suite in image quality at 
range.
    It is true that the U-2 was first introduced in 1955, but the 
``newest'' U-2s were brought into service in 1989 and $1.7 billion of 
investments have been made to modernize the system. The U-2 fleet in 
its current state has been certified to 75,000 flight hours (2040 and 
beyond at current utilization rates). In addition to the new engines in 
1994-1998, the entire fleet has completed new power distribution 
(wiring), 21st century glass cockpit, and modern avionics processor 
upgrades. The U-2s are currently on a 4,000-hour programmed depot 
maintenance cycle included in the budgeted operating costs.
    The divesture of Global Hawk Block 30 saved $3.8 billion across the 
FYDP. Of that savings, $1.3 billion was put back into the U-2 program 
to enable continuation of operations throughout the FYDP. The net 
savings to the taxpayer is $2.5 billion from the divesture of Global 
Hawk Block 30 and addition of sustainment costs for the U-2.
    Question. Given the Air Force is recommending terminating the 
Global Hawk program what confidence do you have that the Block 40 will 
not be canceled next?
    Answer. There is no plan to cancel the Block 40 program. The fiscal 
year 2013 President's budget request funds the Block 40/MP-RTIP program 
($161.9 million research, development, testing, and evaluation (RDT&E) 
and $20.9 million Procurement). The Air Force purchased a total of 11 
Block 40 aircraft through fiscal year 2011 with delivery of the last 
two aircraft in fiscal year 2014.
    Question. The Congress appropriated $322 million for three Block 30 
Global Hawks in fiscal year 2012. What are your intentions with this 
funding? When the fiscal year 2012 Department of Defense appropriations 
bill was signed into law, did you anticipate you would not need these 
aircraft?
    Answer. Pending congressional direction for fiscal year 2013, the 
Air Force does not plan to spend the fiscal year 2012 funding for three 
additional Block 30 aircraft. The Air Force will continue to work 
closely with the committees to determine the best way forward and will 
take no presumptive actions until given direction. When the 
Consolidated Appropriations Act for 2012 (to include the Department of 
Defense) was signed into law on December 23, 2011, the decision on 
whether the fiscal year 2012 funded aircraft were required was being 
reconsidered at lower management levels, but a final decision had not 
been reached.
    Question. What is your assessment of the performance of the Global 
Hawk in combat operations in Libya, Afghanistan, and Iraq and 
humanitarian missions in Japan and Haiti?
    Answer. In Libya, the Global Hawk provided EO/IR and synthetic 
aperture radar and was used in an ISR role with dynamic responsiveness 
due to its enhanced duration/dwell time and the ability to fill gaps 
between other ISR collects. Overall, the Global Hawk was successful in 
Operation Odyssey Dawn. Assessment details can be made available at a 
higher security classification.
    In the U.S. Central Command theater, the Global Hawk continues to 
support the combatant command with both theater and tactical ISR. To 
date, RQ-4 has flown more than 50,000 combat hours, in support of U.S. 
Central Command operations.
    In humanitarian/disaster relief missions, the Global Hawk leveraged 
its range and endurance as an ISR first-responder. Following the Haiti 
earthquake, the Global Hawk executed a response mission in 12 hours, 
effectively providing initial situational awareness, highlighting 
earthquake damage, status of critical infrastructure, and food/aid drop 
zones and indicators of mass population migrations. Eight missions were 
flown, satisfying 2,621 targets.
    In Japan, the Global Hawk capitalized on its range and endurance to 
be overhead in 21 hours. Imagery products were provided to the 
Secretary of State within 40 minutes of request. In addition to 
infrastructure damage assessment, supply route analysis, and real-time 
monitoring of evacuation support, the Global Hawk collection focused on 
the Fukushima nuclear power plant. Because it is a remotely piloted 
aircraft, Japan allowed U.S. Pacific Command to use the Global Hawk 
within the 20 kilometer nuclear engagement zone. Infrared imagery taken 
directly over the top of the reactors allowed engineers to frequently 
monitor core temperature levels. In 21 missions and 300 on-station 
hours, the Global Hawk collected more than 3,000 images.
    Question. Secretary Donley and General Schwartz, in your testimony 
you state that ``There is a compelling need to invest in next-
generation, high-impact systems so that the Air Force can continue to 
provide the capabilities on which our Nation relies. The failure to 
make the proper investments now will imperil the effectiveness of the 
future force and our ability to execute the new strategic guidance for 
decades to come''.
    Secretary Donley, can you tell me how many times you forward 
deployed the U-2 in the past 6 years? How much effort was involved?
    Answer. The U-2 has been forward deployed in support of operations 
in Southwest Asia for the past 22 years, and in the Pacific theater for 
more than 40 years. With the exception of a brief deployment in support 
of disaster relief operations in Haiti, there have been no additional 
forward deployments within the past 6 years. The mechanics of 
establishing our forward deployed location in Southwest Asia proved 
routine as it was similar to other forward deployed operations around 
the world prior to our involvement in that theater, though the initial 
scale of operations dwarfed that of any previous U-2 deployment.
    Question. If the U-2 is to be continued in lieu of the Global Hawk 
Block 30, how will the U-2, locked down on the Korean Peninsula, 
contribute to future operations?
    Answer. The U-2 is not locked down on the Korean Peninsula. We are 
developing a plan to move the U-2 to an alternate location which would 
allow the same collection for U.S. Forces Korea and pick up additional 
missions in the area of responsibility.
    The Air Force retains the ability to deploy U-2 detachments to 
crisis areas as it has done since the aircraft's inception.
    Question. Secretary Donley, given the new defense strategy doesn't 
it seem prudent that we work with STRATCOM, and the Joint Functional 
Component Command for ISR (JFCC-ISR) to develop an ISR architecture to 
determine the appropriate ISR force sizing as it pertains to that 
specific mission set (primarily anti-access/area denial) before we 
start making decisions on where to invest our ISR capabilities or 
investing in extending the life of the U-2?
    Answer. The Joint Requirements Oversight Counsel decision to reduce 
the high-altitude ISR Global Hawk-equivalent orbit requirement was 
informed by Joint Staff analysis in the context of the entire ISR 
portfolio and the emerging Defense Strategic Guidance. Internal Air 
Force deliberations included reviews of JFCC-ISR assessments of U-2 and 
Global Hawk employment in anti-access/anti-denial scenarios, and 
ongoing analysis efforts have validated the course of action taken. In 
sum, multiple independent analytical efforts at various levels within 
the Department of Defense have examined the ISR force structure from a 
broad portfolio view in light of emerging strategic guidance and 
ultimately supported the divestiture decision.
                                 mc-12
    Question. Last year, Senator Barbara Boxer and I wrote letters to 
Secretary Leon E. Panetta and the Chair and Ranking Members of the 
Senate and House Armed Services Committee opposing a provision in the 
Senate Fiscal Year 2012 Defense Authorization bill which would have 
transferred the MC-12 Liberty reconnaissance aircraft from the Air 
Force to the Army. This past December, Senator Boxer and I received a 
response from the Under Secretary of Defense for Intelligence Michael 
Vickers that stated that after a thorough review of current and future 
ISR requirements and recent discussions with the Secretaries of the Air 
Force and Army, Secretary Panetta concluded that the Air Force would 
retain the MC-12 Liberty aircraft. However, only 3 months later, in its 
fiscal year 2013 budget request, the Air Force announced it plans to 
move the MC-12 aircraft to the Air National Guard (ANG) and disperse 
them to four different bases.
    What is the justification for moving these aircraft to the ANG? 
When was this decision made? Was it made after the letter from Under 
Secretary Vickers?
    Answer. The President's and Department of Defense's (DOD) 2012 
Strategic Guidance states the military will defend U.S. territory from 
direct attack by state and non-state actors and come to the assistance 
of domestic civil authorities in the event such defense fails or in 
case of natural disasters, in addition to title 10 overseas military 
operations. This guidance provided the framework the Air Force used to 
conduct an extensive review of the manned medium-altitude ISR 
requirements, to include defense support to civil authorities. Due to 
investment costs to upgrade the RC-26 fleet (11 aircraft), originally 
fielded in the ANG for domestic operations and then adapted for use in 
title 10 operations, the ANG and Air Force collectively determined to 
divest the RC-26 fleet and transfer the MC-12W Liberty to the ANG to 
maintain flexibility across the range of manned, medium-altitude ISR 
requirements.
    The decision to transition the MC-12W to the ANG was captured in 
the fiscal year 2013-2017 Alternate Program Objective Memorandum signed 
by Secretary Donley and General Schwartz and released to the Secretary 
of Defense on August 3, 2011. We are not aware of any specific letter 
from Under Secretary Vickers in regard to the MC-12W. However, Deputy 
Secretary of Defense Carter released a letter to the Chairman and 
Ranking Members of the Armed Services and Appropriation Committees on 
November 21, 2011, and references a discussion Under Secretary Vickers 
and Admiral James A. Winnefeld had with Senate Armed Services Committee 
(SASC) staffers. These officials told the SASC staffers that the 
Secretaries of the Air Force and Army believed that the Air Force was 
the right place for the MC-12Ws to reside.
    Question. Given we have already established the aircraft, support 
equipment, and personnel at Beale this past year would you agree that 
it is fiscally more responsible to retain this capability at Beale and 
not incur the additional costs associated with relocating these 
aircraft and equipment to other various bases?
    Answer. Once the MC-12W transitions, the aircraft returning from 
overseas will be reassigned to four ANG units, but the current MC-12W 
training unit will remain at Beale AFB, California. Since the ANG is 
the DOD's primary provider of domestic operations capabilities, 
retaining all of the MC-12W aircraft at Beale would not provide the ANG 
the ability to quickly respond to civil authorities' requests 
throughout the continental United States.
                                 ______
                                 
                Questions Submitted by Senator Herb Kohl
    Question. What is the definition used by the Air Force for a 
``retired member'' as it appears in title 10 of the United States Code?
    Answer. To our knowledge, the term ``retired member'' is not per se 
defined in title 10, United States Code or any Air Force instruction. 
The term has specific meaning depending on the context within which it 
is used. Generally speaking, when the Air Force refers to a ``retired 
member,'' it is referring to either a regular commissioned officer or 
enlisted member who is retired for years of service (10 U.S.C. 8911, 
8914) or mandatory age (example: 10 U.S.C. 1251), or to a member in one 
of the categories that make up the Air Force Retired Reserve. Air Force 
Instruction 36-3209 defines members whose transfer to the Retired 
Reserve is automatic as:
  --Reserve officers who are retired for service under 10 U.S.C. 8911, 
        20 years or more: Regular or Reserve commissioned officers;
  --Members retired for disability under title 10, chapter 61, 
        Retirement or Separation for Disability; and
  --Reserve enlisted members who are retired for service under 10 
        U.S.C. 8914, 20 to 30 years: enlisted members.
    Other members who will be transferred to the Retired Reserve upon 
completion of an AF Form 131 (Application for Transfer to the Retired 
Reserve) include:
  --Reserve members who meet eligibility requirements of 10 U.S.C. 
        12731 except for attainment of age 60;
  --Reserve members who have completed a total of 20 years of honorable 
        service in the Armed Forces;
  --Reserve members who have completed 10 or more years of active 
        Federal commissioned service in the Armed Forces;
  --Reserve members on Extended Active Duty (EAD) who have been found 
        physically disqualified and placed on the Temporary Disability 
        Retirement List (TDRL) or Permanent Disability Retired List 
        (PDRL) as a result of a service connected disability; and
  --Reserve members not on EAD who have been found physically 
        disqualified are discharged, retained or transferred to the 
        Retired Reserve if they apply and meet the requirements 
        outlined in 10 U.S.C. 12731.
    Question. How many members of the Air Force Retired Reserve have 
been recalled by the Air Force to Active Duty under 10 U.S.C. 688a?
    Answer. Eighty-two Retired Reserve officers were recalled and 
voluntarily returned to Active Duty under 10 U.S.C. 688a via the 
Retired Rated Officer Recall Program. Sixty-two of these officers are 
still on active duty serving out their recall contract as of March 29, 
2012. Twenty have completed their contracts and returned to retired 
status.
    Question. Of those recalled to Active Duty under 10 U.S.C. 688a, 
how many are currently on the Inactive Status List established by 10 
U.S.C. 12735?
    Answer. There are currently three members who have completed their 
Active-Duty tours under 688a and are now assigned to the Retired 
Reserve awaiting pay at age 60 under 10 U.S.C. 12735. Additionally, two 
other members recalled to active duty are in the process of 
transferring back to the Retired Reserve. Once those two members have 
been processed, it will bring the total to five.
    Question. Does the Air Force have a policy to activate members of 
the Air Force Retired Reserve in a manner that allows the member to be 
eligible for early retirement credit authorized by section 647 of 
Public Law 110-181?
    Answer. The Air Force has a policy to activate members of an Air 
Force Reserve component, with the consent of the member, in a manner 
that allows the member to be eligible for early retirement credit 
authorized by section 647 of Public Law 110-181. The Voluntary Limited 
Period Call to Extended Active Duty activates members of the Reserve 
components for extended active duty under title 10, U.S.C., section 
12301(d) which is qualifying active-duty service authorized by section 
647 of Public Law 110-181.
                                 ______
                                 
               Questions Submitted by Senator Tim Johnson
    Question. Secretary Donley, several years ago the Air Force created 
the Alternative Fuels Certification Office (AFCO) to certify 
alternative fuels for use in military aircraft. To date, that office 
has tested and certified fuels that convert coal, natural gas, or 
biomass into jet fuel. AFCO followed up that work by testing and 
certifying hydrotreated renewable jet fuel, which is derived from bio-
oils and fats. These tests confirmed that these alternative fuels had 
performance characteristics virtually identical to JP-8 petroleum fuel 
and these fuels were certified across all your aircraft platforms.
    The third variety of fuels AFCO has begun to investigate is 
alcohol-to-jet (ATJ) fuels. ATJ fuels hold tremendous promise. They can 
promote our national and energy security, be produced in Rural America, 
and they are almost always cleaner than traditional fuels. The Air 
Force should develop its capability to use these fuels to the fullest 
extent possible, and I urge you to continue this work and fully test 
these promising ATJ fuels. What are the Air Force's intentions to 
complete ATJ fuels testing?
    Answer. The Air Force is focused on increasing and diversifying its 
energy supplies to improve our energy security. Part of this includes 
the testing and certification of alternative aviation fuels, such as a 
50/50 blend of traditional JP-8 and ATJ fuel. The Air Force established 
a two-phase approach for ATJ evaluation. During the first phase, which 
is currently underway, the Air Force purchased test quantities of ATJ 
fuel, and conducted feasibility demonstrations and initial evaluations. 
Phase 2 is fleet-wide certification to fly unrestricted operations 
using an ATJ fuel blend. Based on the results of phase 1, as well as 
funding availability, the Air Force will determine whether to move 
forward with phase 2.
    Question. I'm pleased that this year's budget request maintains the 
current B-1 fleet. Having recently completed its 10,000th combat 
mission, there's no question that this is a valuable aircraft and 
essential to the Air Force's mission. Can you discuss the Air Force's 
plans across the future years defense plan (FYDP) and beyond to keep 
the B-1 fleet relevant and strong even in a time of tighter budgets?
    Answer. There are currently five ongoing efforts to address 
obsolescence and diminishing manufacturing sources (DMS) issues for the 
B-1. The Radar Reliability and Maintainability Improvement Program 
(RMIP) replaces two high-failure rate line replaceable units within the 
B-1 radar subsystem and is expected to yield a 60-percent improvement 
in system reliability. The Inertial Navigation System Replacement 
(INSR) upgrades the B-1's primary navigation system to improve 
maintainability, supportability, and navigation performance. The Gyro 
Stabilization System Replacement (GSSR) replaces high-maintenance, 
high-cost, and high-failure rate components within the B-1's secondary 
navigation system for improved reliability and maintainability. The 
Vertical Situation Display Upgrade (VSDU) is a safety-critical 
modification that addresses DMS issues by replacing obsolete primary 
flight instruments with multifunction displays and adds a second 
display at each pilot station for enhanced situational awareness. 
Central Integrated Test System (CITS) upgrades the current on-board 
fault diagnostic and isolation system through increased memory and 
improved user interface to address maintainability and capacity 
limitations.
    Additionally, one major capability program is ongoing to ensure 
that the B-1 remains relevant into the future. The Fully Integrated 
Data Link (FIDL) provides both Link 16 line-of-sight and Joint Range 
Extension beyond-line-of-sight data link capability to improve combat 
situation awareness and command and control connectivity, replaces rear 
cockpit legacy displays with multi-function displays, and provides the 
Ethernet backbone necessary to integrate FIDL, VSDU, and CITS 
throughout the cockpit. FIDL, VSDU, and CITS are all part of an 
Integrated Battle Station production contract enabling concurrent 
procurement and installation of all three upgrades to reduce 
installation costs, aircraft downtime, and keep fielded aircraft 
configurations to a minimum for aircrew training, maintenance, and 
operational deployment efficiencies.
    In addition to the aforementioned ongoing modernization efforts, 
the fiscal year 2013 President's budget request includes funding for 
two additional efforts that address further aircraft and simulator 
obsolescence concerns. The Self Contained Standby Attitude Indicator 
will replace the current standby attitude indicator, which is 
experiencing a significant spike in maintenance actions and reduced 
mean time between failures, with the new standby instrument providing 
attitude, airspeed, and altitude indications. The Simulator Digital 
Control Loading will replace the current analog control loading system 
responsible for matching simulator stick forces to the aircraft with a 
digital system, improving sustainability and keeping B-1 aircrew 
training devices operational.
    B-1 modernization funding includes $47.4 million for research, 
development, testing, and evaluation (RDT&E) and $704.4 million for 
procurement across the FYDP. The Air Force estimates an additional 
$256.6 million is required to fully fund the current programs of record 
beyond fiscal year 2017 to completion. It is premature at this time to 
speculate on further B-1 modernization beyond the previously described 
upgrades, all of which continue through the fielding of the 60th 
Integrated Battle Station aircraft in 2020. However, the Air Force will 
consider additional B-1 program investments, beyond those already 
programmed within the FYDP, as part of the complete Air Force 
portfolio, within total obligation authority limits, to ensure that the 
B-1 fleet remains viable to support combatant commander requirements 
into the future.
                                 ______
                                 
              Questions Submitted by Senator Thad Cochran
                    light attack support procurement
    Question. Secretary Donley, please provide the subcommittee with an 
update on the Light Attack Support (LAS) procurement. What specific 
issues have you found? When will a final report be available?
    Answer. The LAS contract was originally awarded on December 22, 
2011, to Sierra Nevada Corporation (SNC), but was terminated by the Air 
Force on March 2, 2012, as part of the Air Force's corrective action in 
response to the suit filed by Hawker Beechcraft Defense Corporation 
(HBDC) in the U.S. Court of Federal Claims. The Air Force Service 
Acquisition Executive was not satisfied with the documentation 
supporting the original LAS source selection, prompting termination of 
the contract with the SNC. Additionally, the Commander of Air Force 
Materiel Command ordered a Commander-Directed Investigation (CDI) into 
the LAS contract process on February 27, 2012. Part 1 of the CDI is 
complete focusing solely on the execution of the source selection 
processes and procedures in the original LAS contract. However, release 
of the CDI report would compromise the integrity of the ongoing source 
selection process due to the source selection sensitive information 
contained in the report.
    After studying the circumstances prompting the corrective action 
and facts from the subsequent CDI, the Air Force decided to issue an 
amendment to the LAS request for proposal (RFP) to both offerors. Air 
Force officials met with both original offerors, SNC and HBDC, 
individually, to review the amended RFP changes line-by-line on April 
17, 2012. Both were provided the opportunity to submit comments on the 
draft RFP amendment, after which the Air Force released the final 
amended RFP on May 4, 2012. While the decision process will be event-
driven, the Air Force targets a source selection decision in early 
calendar year 2013. This would allow first aircraft delivery to 
Afghanistan in the third quarter of 2014.
    Question. Secretary Donley, is it Air Force's intention that LAS 
aircraft comply with U.S. weapons, communications, and anthropometric 
standards in order for U.S. Military Personnel and partners to work 
seamlessly?
    Answer. The LAS program is funded by Afghan Security Forces funds 
and provides a light attack capability for Afghanistan. This program is 
specifically for Afghanistan and no plan currently exists to extend the 
platform beyond Afghanistan. There is a requirement within the Afghan 
LAS program for U.S. forces to partner with the Afghan Air Force to 
train and advise them on the system. Although there are advantages to 
U.S. forces being familiar with the LAS platform, this is not an 
absolute requirement. The Air Force will leverage experienced Air Force 
instructor pilots, maintainers and logisticians capable of quickly 
learning the LAS system and then training and advising their Afghan 
counterparts.
    Question. Secretary Donley, can you please describe what 
interaction, if any, has occurred between the U.S. Air Force and the 
U.S. State Department on the LAS procurement? While I understand you 
can only speak on behalf of the Air Force, can you please assure this 
subcommittee that the LAS procurement and the Brazilian FX-2 fighter 
competition are being handled as completely separate matters?
    Answer. The Air Force has maintained the appropriate level of 
coordination with Department of State on this matter. The Air Force 
Foreign Policy Advisor's office has responded to all DOS inquiries and 
provided coordination with the DOS Political-Military Bureau. 
Additionally, following termination of the LAS contract, the Air Force 
Public Affairs (PA) office coordinated with the DOS PA office to assist 
in answering questions from the Government of Brazil.
    As for the Brazilian FX-2 fighter competition, there is no 
connection between the U.S. Government's advocacy for the F/A-18 sale 
and the LAS contract. The programs are not associated in any manner.
                  c-27j versus c-130 operational costs
    Question. General Schwartz, the Air Force plans to terminate the C-
27 program and put already purchased aircraft in storage or find 
another home for them. As an alternative, the Air Force plans to use C-
130 cargo aircraft to provide direct support to Army units. It's my 
understanding the C-27 is already operating cargo missions for our 
ground forces in Afghanistan and that these missions reduce stress on 
Chinook helicopters which are much more expensive to operate per hour 
than either a C-27 or C-130. In addition, these C-27 missions may 
reduce the need for ground convoys which are not only dangerous but 
costly. Considering the flying hour cost of operating a C-130 can be 
more than double the cost of a C-27, what is the total cost of the Air 
Force's proposal and what assurances can you give us that the 
Department has conducted the proper business case analysis that takes 
these costs and risks into account?
    Answer. The Air Force's decision to terminate the C-27J program and 
divest the current fleet of 21 aircraft is based on a number of 
factors--not simply the cost to operate one platform versus another. 
The predominant consideration in our analysis was the reduction in 
overall intra-theater airlift demand and resulting force structure 
requirements attendant to the Department's January 2012 revised 
strategic planning guidance. While our analysis did include a life-
cycle cost comparison between the C-27J and various C-130 variants, the 
operating costs of these platforms were not dominant elements in our 
decision calculus. We elected to divest the C-27J fleet in favor of 
keeping more operationally capable C-130 aircraft that can support the 
full realm of intra-theater airlift requirements, including Army time 
sensitive/mission critical direct support, rather than keeping a 
relatively small fleet of ``niche'' C-27J aircraft that are suited for 
the Army direct support role, and not the full spectrum of conflict.
                                 ______
                                 
             Questions Submitted by Senator Lamar Alexander
    Question. The greatest threat facing the Arnold Engineering 
Development Center is that the facilities at the base are 50 years old 
and they are reaching the breaking point.
    Although facilities are funded through Military Construction, which 
is not this subcommittee's jurisdiction, the fiscal year 2013 budget 
request for Air Force military construction is only $388 million, down 
from more than $1.2 billion in fiscal year 2012. The Air Force must 
develop a long-term plan to ensure critical testing facilities, like 
Arnold Engineering Development Center in Tennessee, can continue to 
operate. The fiscal year 2013 budget request is inadequate to meet 
infrastructure needs at many facilities, including Arnold.
    Secretary Donley, what specific plan does the Air Force have to 
ensure that Arnold can continue to provide the Air Force with testing 
facilities capable of developing new cutting-edge technologies to 
support future missions without adequate funding?
    Answer. Each year, the Air Force prioritizes their most urgent 
military construction requirements for inclusion in the Air Force's 
military construction portion of the President's Budget. With budget 
constraints, we can only fund the most urgent projects; however, the 
Air Force is committed to sustaining, maintaining, and modernizing our 
physical plants to include facilities at Arnold Engineering Development 
Center. The Air Force did include two military construction projects 
for $26.8 million at Arnold Engineering Development Center in the 
Future Years Defense Program with the fiscal year 2013 President's 
budget submission. Although the Air Force did reduce our military 
construction budget request for fiscal year 2013, our goal is to return 
to historical military construction program funding levels in fiscal 
year 2014 to support the National Military Strategy.

                          [Dollars in millions]
------------------------------------------------------------------------
                           Title                                 Cost
------------------------------------------------------------------------
Power distribution modernization...........................         13.2
ADAL test cell delivery bay................................         13.6
                                                            ------------
      Total................................................         26.8
------------------------------------------------------------------------

    The two projects noted in the table above are in the fiscal year 
2013 President's budget FYDP.
    In addition, we have provided fiscal year 2012 funds for the 
following projects:
  --AEDC Propulsion Wind Tunnel #1 Transformer--$2.1 million;
  --AEDC (National Full-Scale Aerodynamics Complex) 40X Crane 
        Refurbishment--$875,000;
  --AEDC Cooling Tower--$400,000; and
  --AEDC Critical Steam System Supplies--$466,000.
    Question. The USAF has stated publicly that given the downsizing of 
its fleet, it will be required more than ever to utilize technology to 
maintain fleet readiness. Fuel leaks on aircraft are known to severely 
impact the mission capability of aircraft operations. When an aircraft 
does go out of service for fuel leaks, the downtime is an unknown, 
until it is finally successfully repaired (days, weeks, sometimes 
months). The USAF has investigated, evaluated, and approved 
technologies and systems that will reduce the cost and downtime of 
aircraft fuel leak repairs.
    Given these thorough evaluations, does the Air Force have a plan 
for implementing such systems across the Air Force maintenance 
enterprise? And, if not, can you please describe what impediments you 
face for leveraging such a cost saving approach?
    Answer. Our program offices address sustainment challenges in many 
ways. A significant effort required for supporting each weapon system 
is the life-cycle management plan (LCMP). The LCMP fulfills the Federal 
Acquisition Regulation (FAR), Defense FAR Supplement, and Air Force FAR 
Supplement requirements of the acquisition plan and Department of 
Defense Instruction 5000.02 requirements for the acquisition strategy. 
The plans address long-range capability and sustainment efforts. 
Sustainment efforts often consider pacing ``not mission capable'' 
maintenance and ``not mission capable'' supply issues. Recently 
recurring fuel leaks in KC-135 aircraft drove root cause analysis that 
identified the existing aircraft fuel bladders had outlived the repair 
processes. New bladders were ordered and the fuel leaks were reduced.
    Weapon systems are reviewed at recurring intervals during which 
operators, depot managers, and program managers identify and analyze 
system indicators affecting aircraft availability. High maintenance and 
supply drivers are identified and plans are developed to correct or 
prevent recurrence. Often new technology solutions provide the best and 
fastest resolution. Our prime vendors identify numerous new product and 
tooling solutions, but our repair centers, program offices, and flying 
units often discover new technology through vendor demonstration. Of 
course, we follow strict acquisition governance, contracting law, and 
technical validation to ensure the safety of our systems. This is 
especially critical for technology that may apply to multiple weapons 
systems.
    Additionally, the Air Force Research Laboratory is involved with 
new technology identification and validation. Successful programs and 
products are shared across our major commands to improve repair 
capabilities.
    Question. C-17s provide the most advanced strategic airlift 
capability, and it makes sense to locate these aircraft in Memphis 
which has the best cargo facilities and aviation infrastructure in the 
world.
    General Schwartz, the Air Force announced plans to relocate C-17s 
to Memphis. Since Memphis already has all of the facilities in place to 
support the C-17 mission, what is the exact timeline for getting C-17s 
to Memphis?
    Answer. During the development of the fiscal year 2013 President's 
budget submission, the Air Force determined the Tennessee Air National 
Guard's 164th Airlift Wing at Memphis would convert from C-5As to C-
17As, completing an action initiated in fiscal year 2012. Under the 
current plan, Memphis would receive the first four C-17A aircraft in 
fiscal year 2013, with the remaining four aircraft arriving in fiscal 
year 2014. The schedule was planned around the transition between 
missions, accounting for C-5A retirements to make room for the C-17As, 
as well as allow for retraining of aircrew and maintenance personnel. 
Memphis C-5A retirement is planned to complete by the end of fiscal 
year 2014.
    Air Mobility Command will work closely with the Air National Guard 
to ensure the most effective plan is implemented, adjusting the arrival 
plan accordingly based on the specific details of the C-5A retirement 
schedule and progress of C-17A training for Memphis personnel.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
    Question. General Schwartz, you have repeatedly told me that the 
relocation of the 18th Aggressor Squadron to Joint Base Elmendorf-
Richardson (JBER) should not be interpreted as the first step in a 
process that will lead to closure of the base. Would you state for the 
record:
  --whether this remains the case; and
  --what the Air Force's intentions are for the future of Eielson Air 
        Force Base (AFB)?
    Answer. Relocating the 18th Aggressor Squadron to JBER is not a 
precursor to closing Eielson AFB. Eielson remains a valuable strategic 
asset for both homeland defense as well as for power projection into 
the Pacific theater. As such, it will remain the 168th Air Refueling 
Wing's Air National Guard (ANG) home in Alaska and the Red Flag-Alaska 
exercises will remain at Eielson AFB, Alaska. If the Congress 
authorizes the requested base realignment and closure (BRAC) rounds in 
2013 and 2015, the Air Force's proposed force structure changes do not 
pre-suppose what will happen to a particular installation during the 
BRAC analysis. The Department of Defense (DOD) will consider all 
installations equally with military value as the primary consideration.
    Question. Secretary Donley and General Schwartz, would you state 
for the record how you expect that Eielson AFB will contribute to Air 
Force operational objectives and U.S. national security in the coming 
years, with particular emphasis on how the continued operation of 
Eielson AFB supports the United States presence in the Asia/Pacific 
region?
    Answer. Eielson AFB will continue to support key national and Air 
Force priorities in the years ahead, to include Operation Noble Eagle, 
North American Aerospace Defense Command contingency plans, support to 
U.S. Pacific Command, and exercise support in the Joint Pacific Alaska 
Range Complex. The new strategic guidance puts increased emphasis on 
the Pacific Command area of responsibility, including our training and 
exercise efforts.
    Question. It is counterintuitive to believe that the Air Force will 
achieve cost savings or efficiencies by maintaining Eielson AFB in a 
warm status given the relatively high cost of maintaining a warm base 
in a cold place, as was demonstrated to the 2005 BRAC Commission. 
Intuitively it would seem to make more sense to spread the fixed costs 
of operating Eielson AFB among a higher level of year-round activities. 
Is there a flaw in this logic? Has the Air Force considered the 
alternative of achieving efficiencies by relocating activities 
presently conducted in the lower 48 or abroad to Eielson AFB?
    Answer. During the development of the fiscal year 2013 Air Force 
budget request, we were required to make a number of difficult 
decisions to adjust to both our new strategic priorities and to fiscal 
realities. The transfer of the 18th Aggressor Squadron from Eielson AFB 
to JBER in fiscal year 2013 garners manpower and efficiency savings by 
consolidating operations/maintenance supervision overhead and base 
support functions.
    To assign new units to an installation in the future, we will 
utilize the Air Force Strategic Basing process, which uses criteria-
based analysis, and the application of military judgment, linking 
mission, and combatant commander requirements to installation 
attributes to identify locations that are best suited to support any 
given mission. The results of this analysis will be used to inform the 
basing decisions made by the Secretary and Chief of Staff of the Air 
Force. Eielson AFB will be considered in future basing actions as 
defined by the respective basing criteria.
    Question. The Air Force has a plan to relocate the 18th Aggressor 
Squadron in 2013 and reduce the scale of year-round operations at 
Eielson AFB in subsequent years while maintaining year-round operations 
of the 168th Refueling Squadron and other tenants, including the Joint 
Mobility Center. Would you estimate with specificity how much money the 
Air Force intends to save if this plan is implemented and how these 
savings will be achieved, e.g., how much would be saved by reduction of 
personnel, reduction of utility costs, closure and/or demolition of 
base facilities, deferred maintenance, et cetera?

  WHAT ARE THE ESTIMATED COST SAVINGS IN FISCAL YEARS 2013, 2014, 2015,
                             2016, AND 2017?
                          [Dollars in millions]
------------------------------------------------------------------------
                                                                Amount
------------------------------------------------------------------------
Fiscal year:
    2013...................................................          3.5
    2014...................................................          6.9
    2015...................................................         34.3
    2016...................................................         61.8
    2017...................................................         63
------------------------------------------------------------------------

    The chart above was provided to Senator Mark Begich and shared with 
his colleagues on the Alaska congressional delegation and depicts the 
savings that the Air Force expects to realize through implementation of 
its plan for Eielson AFB. It does not, however, explain specifically 
how these numbers will be achieved or what data sources the Air Force 
relied upon in making this prediction.
    Answer. The transfer of the 18th Aggressor Squadron from Eielson 
AFB to JBER in fiscal year 2013 garners manpower and efficiency savings 
by consolidating operations/maintenance supervision overhead and base 
support functions. Estimated cost savings are $3.5 million for fiscal 
year 2013 and $169.5 million across the future years defense program. 
The estimates are based primarily on eliminating manpower 
authorizations the U.S. Pacific Air Forces Command analysis determined 
were no longer needed at Eielson AFB once the 18th Aggressor Squadron 
relocates. However, sufficient capability will remain in-place at 
Eielson AFB to support the 168th Air Refueling Wing, exercises, and our 
Joint partners at Fort Wainwright. Headquarters U.S. Pacific Air Forces 
Command's Eielson/Joint Base Elmendorf-Richardson Site Activation Task 
Force will determine other savings from the proposed relocation. The 
Air Staff is currently validating the results from the Site Activation 
Task Force Report dated May 31, 2012.
    Question. As you know the 2005 BRAC Commission evaluated a scenario 
under which all aircraft other than the KC-135 tankers assigned to the 
168th Refueling Squadron would be removed from Eielson AFB and 
questioned the Air Force's conclusion that significant cost savings and 
efficiencies will be achieved from attempting to maintain a warm base 
in a cold place. Have you satisfied yourself that the 2005 BRAC 
Commission's economic analysis was wrong? Have you taken steps to 
independently ensure that the Air Force staff assumptions are valid and 
have not been biased by a desire to refight and win a battle that was 
lost before the 2005 BRAC Commission?
    Answer. The Air Force stands by its original BRAC recommendation to 
move the Aggressors, but agrees with the Commission's recommendation to 
ensure access to adequate range space. Our current proposal recognizes 
the value of retaining an Aggressor training capability in Alaska to 
support F-22 Raptor training, Red Flag-Alaska, and to leverage the 
Joint Pacific Alaska Range Complex. In addition, the F-16 Aggressor 
move to JBER will co-locate them with the F-22 Raptors, one of the 
Aggressors' training partners and capitalizes on the benefit of 3rd 
Wing facilities that once supported F-15 Eagles.
    Overall, BRAC 2005 fell short of the Air Force's goal to reduce 
overhead and operational costs by reducing excess installation 
capacity. Today, 7 years later and 500 aircraft fewer, the Air Force 
continues to maintain large amounts of excess infrastructure. These are 
dollars we need in other areas.
    We are aware there are other savings opportunities and we will rely 
on the Site Activation Task Force to determine those additional 
savings. We have taken steps to ensure independent review of our 
assumptions underlying the Air Force's proposed force structure changes 
by having the Office of Secretary of Defense's Directorate of Cost 
Assessment and Program Evaluation review and vet our plan.
    Question. Please describe in detail the process by which the 
recommendations pertaining to Eielson AFB were formulated, including 
timeframes and participants, and the key recommendation and decision 
documents through which these recommendations were performed and 
approved. In answering this question, please describe in detail how the 
``tabletop'' exercise was carried out. Did the tabletop participants 
rely to any extent on the data that the Air Force utilized to justify 
its decision to place Eielson AFB on the 2005 BRAC list? What other 
data was considered and how recently was it compiled?
    Answer. The Air Force has taken a deliberate approach to 
streamlining operations at Eielson AFB. From approximately September 
2010 to February 2011, Headquarters Pacific Air Forces studied the 
feasibility of the proposal to move the 18th Aggressors Squadron to 
JBER, Alaska.
    In early 2012, Headquarters Air Force conducted an analysis of 
potential courses of action to determine if a reduction in personnel at 
Eielson AFB was a feasible method of achieving efficiencies in a 
resource-constrained environment while preserving valuable missions. 
Although the majority of facilities will remain open and functional to 
provide rapid operational capability to operational plans and tenant 
units, the analysis demonstrated the Air Force can reduce manpower 
substantially while maintaining support to tenant units and future 
exercises.
    Once the Secretary of the Air Force and Chief of Staff of the Air 
Force approved the relocation of the 18th Aggressor Squadron to JBER as 
part of the fiscal year 2013 President's budget request, Pacific Air 
Forces formed survey teams that are aggressively moving forward to 
finalize all manpower and facility needs to maintain support to the 
168th Air Refueling Wing and other operational requirements.
    The Air Force believes it fully complied with the BRAC statutes 
(title 10, section 2687) for realigning the 18th Aggressor Squadron to 
JBER. Actions occurring at Eielson AFB, are force structure changes and 
do not portend base closure.
    Question. Would the Air Force have any objection to opening its 
files pertaining to the future of Eielson AFB so that the Alaska 
congressional delegation and experts engaged by the State of Alaska and 
the Fairbanks North Star Borough could fully understand and analyze the 
Air Force's analysis and assumptions? If the Air Force is prohibited by 
law from doing so, please state which laws so provide. If the Air Force 
believes that it is imprudent to do so in order to protect its 
deliberative processes or other considerations please explain why 
transparency considerations should not override these concerns.
    Answer. The Air Force is not precluded by law from sharing its 
analysis or assumptions associated with force structure changes at 
Eielson AFB. We shared our plans, including our analysis and 
assumptions, for Eielson AFB in our April 25, 2012, briefing to the 
Alaska delegation. We would like to reiterate that our action does not 
close Eielson AFB and the Air Force remains committed to supporting the 
base with DOD's strategic shift to the U.S. Pacific Command (PACOM). We 
intend to maintain Eielson AFB for its strategic importance as an 
enroute/staging base for PACOM requirements.
    As mission demands evolve and resource constraints emerge, the Air 
Force will continue to stay engaged with our congressional partners to 
provide the most effective and efficient air, space, and cyberspace 
power for the Nation. We look forward to working with you during this 
challenging fiscal environment.
    Question. I remain unclear about whether the Air Force has any 
justification to relocate the 18th Aggressor Squadron to JBER separate 
and apart from its long-term plans to reduce the level of year-round 
operations at Eielson AFB.
    What is the justification for relocating the 18th Aggressor 
Squadron in fiscal year 2013, as opposed to fiscal year 2014 or fiscal 
year 2015?
    Answer. As we looked out at the entire Air Force, it was clear that 
we needed to take an enterprise-wide approach to cut back on overhead 
expenses. Eielson AFB hosts the only wing that has a single operational 
squadron in the active-duty Air Force. Maintaining an entire wing 
overhead structure over a single active-duty squadron was an 
inefficient use of very tight resources. In addition, having the 18th 
Aggressor Squadron collocate with its primary customer, the 3rd Wing's 
F-22s stationed at JBER, is the most efficient operational laydown.
    With this background, the Air Force plans to move the 18th 
Aggressor Squadron, relocating its aircraft and 542 military personnel 
to JBER in fiscal year 2013. This will save the personnel costs 
associated with the 81 Military positions in wing overhead and improve 
its operational interactions with its customers. The fiscal year 2013 
President's budget request also adds 43 Base Operations Support (BOS) 
military positions required to support the aggressors at JBER. With the 
lone active-duty flying operation removed, the Air Force plans to right 
size active-duty personnel for the enduring missions at Eielson AFB, 
significantly reducing manpower costs over the future years defense 
plan (FYDP). In order to ensure sufficient timing for planning, the Air 
Force plans to hold off right-sizing the manpower footprint until 
fiscal year 2015. We project manpower savings alone, starting in fiscal 
year 2013, building to approximately $62 million per year beyond fiscal 
year 2016 for a total savings of $169.5 million over the FYDP. We 
expect further savings to be detailed as we refine the BOS portion of 
the plan.
    To finalize the exact detailed planning associated with moving the 
18th Aggressor Squadron, the Air Force is currently conducting a 
focused Site Activation Task Force (SATAF). This SATAF will 
specifically detail actions needed to move the Aggressors in fiscal 
year 2013. They will complete all necessary detailed planning and 
capture any incidental costs associated with bedding down the 
Aggressors at JBER. They will also determine the JBER unit assignment 
and timeline for the additional BOS personnel associated with moving 
the Aggressors to JBER. Although detailed direct and indirect costs and 
savings with relocating the 18th Aggressors to JBER across the FYDP are 
not available at this time, we believe that the personnel costs savings 
of the entire program will exceed other costs. If we project that 
savings will not be realized, or result in affordability, feasibility 
and executability issues, the Air Force is committed to re-evaluate the 
proposal. Assessing the local economic impact of the movement of the 
18th Aggressor Squadron is outside the purview of the SATAF. The SATAF 
plans for public release of report for moving the 18th Aggressor 
Squadron on or about May 31, 2012.
    The Air Force plan to remove active-duty BOS personnel at Eielson 
AFB in fiscal year 2015 does not affect the BOS for the ANG facilities 
or the remaining active-duty activities at Eielson AFB. In spring 2014, 
the Air Force will conduct an additional SATAF to get the precise 
detail associated with the reduction of Eielson BOS personnel. The Air 
Force will ensure adequate BOS manning for both exercise and ANG's 
168th Air Refueling Wing requirements. The Air Force has planned 
sufficient Air Traffic Control Tower manning at Eielson AFB to provide 
flexible support throughout the week to meet operational mission 
requirements. Base maintenance and support will be accomplished through 
a combination of contract (local hire) and in-house military workforce. 
The 354th Logistic Readiness Squadron will continue to operate and 
maintain the Joint Mobility Center. Eielson AFB will also maintain an 
increment of War Reserve Material to support PACOM's operational plans. 
This SATAF will help determine how best to beddown the remaining 
personnel on Eielson in the most efficient manner, utilizing common use 
infrastructure, dormitories, and Red Flag facilities.
    Question. The Air Force has provided a powerpoint presentation 
detailing the role of the ``site survey'' or ``Site Activation Task 
Force'' team. The powerpoint would lead me to conclude that the role of 
the SATAF team is to determine how to carry out the relocation of the 
18th Aggressor Squadron and other decisions that have already been made 
about Eielson AFB rather than determine whether the assumptions made 
about Eielson AFB in the tabletop exercise are valid. I was led to 
believe in Air Force briefings that the Site Survey team would generate 
information that might address the question of ``whether'' given the 
limitations of the tabletop exercise not just the question of ``how.'' 
Which is the case? Is it within the realm of possibility that the Air 
Force will reconsider its plans for Eielson AFB following submission 
the Site Survey team's report? Does the Air Force intend to brief the 
Alaska congressional delegation on the outcome of the Site Survey and 
provide copies of the team's report for review? If not, why not? Who 
has or will the site survey team consult with in Alaska and within 
other services and DOD? Please detail specifically how the Air Force 
has coordinated with NORTHCOM in recommending these moves, given 
Eielson's role in homeland defense and homeland security.
    Answer. The SATAF is focusing on finalizing the movement of the 
18th Aggressor Squadron to JBER. The SATAF team will out brief the 
Pacific Air Forces' Commander who can provide an out brief to other 
parties, as required.
    Combatant commanders (COCOM) are afforded the opportunity to review 
the Services' Program Objective Memorandums (POM) after the Services 
submit their POM positions to the Office of the Secretary of Defense. 
The 18th Aggressor Squadron's aircraft are training-coded and 
doctrinally, it is the responsibility of the Air Force to align its 
forces in the best possible manner to ensure adequately trained forces 
to fulfill COCOM requirements. During the Fall Program Budget Review, 
U.S. Northern Command reviewed the Air Force's POM position and did not 
express any concerns with the Air Force's Eielson AFB position for 
these training-coded aircraft.
    The proposal to retain the 168th Air Refueling Wing at Eielson AFB 
and maintain the base and runway operating capability while moving the 
training-coded F-16s to JBER is directly tied to the strategic 
importance of this base and this location. The robust training 
capability for Red Flag-Alaska exercises will remain at Eielson AFB and 
is a testament to the quality and capacity for world-class training and 
readiness emphasis which is of particular importance to the Pacific 
theater. While the training-coded Aggressor F-16s are slated to 
relocate to JBER, they will still participate in, and support, these 
large force, Joint and combined exercises the same way the combat-coded 
units at Elmendorf AFB have done for years. The current training and 
readiness focus of effort will remain under the current proposal.
    Question. It has been suggested for some time that the 168th Air 
Refueling Wing would be able to meet a greater percentage of mission 
requirements if additional tankers were assigned and an active 
association were created. Is the Air Force considering this proposal 
and what are the prospects for its approval?
    Answer. Pacific Air Force and the ANG have conducted several 
meetings on the stand-up of a classic association at Eielson AFB. The 
results determined that there was insufficient tanker aircraft and 
manpower to stand-up an association, but more importantly, the commands 
determined that there was sufficient resources in-place to meet 
combatant commander operational and training requirements. However, 
associations are a valuable Total Force tool the Air Force uses to meet 
national security needs. Proposals for new Total Force Integration 
(TFI) associations can be submitted by the National Guard Bureau and 
all the Air Force Major Commands. Once submitted, each proposal 
undergoes a set of reviews before being presented for decision. Each 
proposal is reviewed for legal sufficiency, strength of business case 
and resourcing/funding availability before being presented for final 
Air Force decision. Additionally, this TFI review process is integrated 
with the Air Force Strategic Basing process to ensure all location-
related aspects are consistent with that process. Throughout both the 
TFI and Strategic Basing processes, there is full Active component and 
Reserve component engagement.
    Question. Given JBER's role in the Pacific I was surprised to learn 
that its C-130 lift capacity would be reduced. What is the 
justification for reducing the C-130 lift at JBER and how does this 
relate to the strategic emphasis on Asia and the Pacific? Was this 
reduction coordinated with Alaska's Adjutant General?
    Answer. Defense Strategic Guidance reduced the overall requirement 
for intra-theater airlift. Using scenarios consistent with the revised 
Defense Strategic Guidance, Air Force analysis determined that excess 
capacity exists in the Air Force intra-theater airlift fleet. The Air 
Force's C-130 retirements allow taxpayers to avoid an additional $533 
million in aircraft sustainment bills while still being able to meet 
Pacific Theater requirements.
    The Air Force retains a fleet of 318 C-130 aircraft (134 C-130J, 
184 C-130H) to meet the new strategy within fiscal constraints, and the 
service is maintaining an 8 Primary Aircraft Assigned (PAA) unit at 
JBER to meet worldwide requirements including Asia and the Pacific. The 
Air Force decision to reduce Elmendorf by 4 PAA standardizes the unit's 
aircraft numbers with most other ANG C-130 locations across the 
country, which affords a higher level of uniformity/predictability in 
training, manpower needs, and mission execution.
    The National Guard Bureau represents ANG/State/adjutant general 
interests during Air Force budget deliberations, and they participated 
throughout the development of the fiscal year 2013 President's budget 
request. Although ANG aircraft are being divested, the Alaska ANG is 
not losing any manpower due to this reduction in C-130 aircraft.
    Question. How will the Air Force ensure Eielson AFB remains a fully 
functioning base that allows the 168th Air Refueling Wing to fully 
conduct its 24-hour-per-day, 7-day-per-week, 365-day-per-year, no-fail 
refueling mission in support of the administration's Asia-Pacific 
focus?
    Answer. Headquarters Pacific Air Forces (PACAF) addressed the 168th 
Air Refueling Wing continuous operations requirement by developing a 
manpower baseline for base support that included the 168th Air 
Refueling Wing operations, Red Flag support, Distant Frontier and 
Northern Edge exercises, and potential diverts off the range into 
Eielson AFB. This manpower baseline provides Eielson AFB the 
flexibility to meet requirements beyond 8 a.m.-5 p.m. local as needed. 
PACAF's preliminary plan is for Eielson AFB base support units, 
including base operations and air traffic control, to be a detachment 
of JBER which relies on them for support as needed.
    Question. The movement of the Aggressor Squadron would include the 
relocation of a significant number of airmen and their families, but 
about 400 soldiers at JBER are already in temporary barracks. You have 
indicated the Air Force's plan for housing new airmen at JBER, its 
cost, and when it would be funded is not yet known. You've similarly 
indicated that whether JBER has the infrastructure necessary to house 
and maintain the F-16s and support functions, its cost and when it 
would be funded is not yet known. Please provide me with this 
information as soon as it is available.
    Answer. Because of the Air Force's Force Structure realignment, 
U.S. Pacific Air Forces Command conducted a SATAF at Eielson AFB from 
April 11th to April 13th and at JBER from April 16th to April 18th. 
This SATAF will determine the requirements, such as dormitories and F-
16 support functions, to adequately bed down the relocated Aggressor 
Squadron. Once the housing and infrastructure requirements are refined 
as a part of the SATAF process, and the costs determined, we will 
forward that information to you, along with a timeline.
    Question. You have said the assumption is that neither an 
Environmental Impact Statement (EIS) nor an Environmental Assessment 
(EA) will be needed to move the F-16s to JBER. Since the move would 
involve more planes at a base that already flies multiple types of 
aircraft in a crowded more personnel being stationed at JBER, please 
provide me with the Air Force's final opinion on this matter as soon as 
it is available, as well as an estimate on how much any EA or EIS would 
cost and the timeline for such a review.
    Answer. The most recent National Environmental Policy Act (NEPA) 
document prepared for JBER does not cover adding an additional fighter 
squadron from Eielson AFB. A new NEPA analysis will be required to 
support Air Force proposal to add an additional fighter squadron to 
Eielson AFB and any related alternatives culminating in final decision.
    Headquarters PACAF is working to define the scope of work, 
schedule, and rough cost estimate for an environmental analysis. PACAF 
will also conduct a SATAF survey in April 2012. No aircraft movements 
will take place until the SATAF findings are properly documented, all 
NEPA requirements are completed, and the Congress completes action on 
the fiscal year 2013 President's budget. The Air Force goal is to 
complete environmental assessments within 6 months of study initiation 
and environmental impact statements within 12 months of initiation.
    Question. Hundreds of military personnel from around the globe 
visit Alaska every summer for training. Those troops are housed at 
Eielson AFB, JBER, university campuses, and even in Kodiak. Where would 
they be housed if Eielson AFB became an 8-5 base? What will foreign 
militaries that train in Alaska do if the Aggressor Squadron is moved 
and Eielson AFB becomes an 8-5 base? Please also detail the Air Force's 
plans to support Clear Air Force Station if Eielson AFB becomes an 8/5, 
Monday through Friday base.
    Answer. The Air Force addressed continuous operation at Eielson AFB 
by developing a manpower baseline for base support that includes 168th 
Air Refueling Wing operations, Red Flag support, and Distant Frontier 
and Northern Edge exercises. This manpower baseline provides Eielson 
AFB the flexibility to meet requirements necessary to support the full 
range of assigned missions. The housing of participants for various 
exercises continues as in the past utilizing Eielson AFB, JBER and 
surrounding areas to accommodate the participants. The Aggressor 
squadron is moving from Eielson AFB to JBER to gain efficiencies and 
cost savings, but the Aggressors will still support exercises at Joint 
Pacific Alaska Range Complex.
                                 ______
                                 
             Questions Submitted by Senator Lindsey Graham
    Question. Secretary Donley, as you know, the Common Vertical Lift 
Support Platform (CVLSP) program was terminated in the President's 
fiscal year 2013 budget. This platform was to be the replacement for 
the Air Force UH-1N ``Hueys'' that suffer from shortfalls in lift 
capability, speed survivability, maintainability, night/adverse weather 
capability, and avionics/human factors. The Air Force has stated 
repeatedly that an urgent operational need has existed since 1996 and 
that, as late as last year, was considering invoking the Economy Act of 
1932 to justify a sole source buy to replace the Hueys. Please explain 
to me the rationale and justification for terminating the CVLSP. 
Further, please explain what it's going to cost the taxpayer to 
continue to fly and maintain 40-year-old helicopters that no longer 
satisfy the current operational requirements for this mission.
    Without the acquisition resources available to satisfy this 
``urgent and compelling'' need, has the Air Force considered any more 
affordable alternatives such as leasing aircraft to accomplish this 
mission?
    Answer. The Air Force is taking an acquisition pause to explore 
more cost effective strategies to meet the nuclear security and 
continuity of government missions. We are considering all alternatives 
to address these mission requirements, and no decisions have been made 
at this time.
    Question. Does the Air Force still believe that it needs the same 
size and similarly equipped aircraft to do such dissimilar missions as 
nuclear weapon convoy escort and intercontinental ballistic missiles 
(ICBM) emergency security response in adverse weather conditions and 
the much more benign mission of passenger transport in the National 
Capital Region provided by the 1st Helicopter Squadron at Andrews Air 
Force Base, Maryland?
    Answer. Yes. The Air Force still believes one common helicopter to 
support the nuclear security and National Capital Region missions is 
the best option. Though the missions are different, the resultant 
payload, survivability, situational requirements, and capabilities 
required to accomplish those missions are very similar and allow us to 
use a common platform. In addition, a common helicopter between the two 
missions results in long-term savings and flexibility from an 
operational and sustainment perspective.
    Question. The fiscal year 2012 Department of Defense (DOD) budget 
included $52.8 million in funding for CVLSP, and no money in fiscal 
year 2013. We now understand CVLSP will not go forward, and the USAF 
has instead decided to take used United States Marine Corps (USMC) UH-
1N's destined for the boneyard and use the CVLSP funding to recondition 
these aircraft which are just as unable to meet the requirements as the 
current United States Air Force (USAF) UN-1N's. Isn't that strategy 
throwing good money after bad, and wouldn't it be a better use of the 
$52.8 million CVLSP funding to introduce an aircraft that CAN meet the 
requirements of the mission, even if it is in limited quantities for 
now?
    Answer. The Air Force and DOD have not finalized any plans for 
using the $52.8 million of fiscal year 2012 CVLSP aircraft procurement 
funding. There are no plans to use any of the fiscal year 2012 CVLSP 
funding to recondition the Marine Corps UH-1Ns. Regardless of what the 
Air Force and DOD decide, the Congress would have to approve the 
reprogramming of funds.
    The Air Force still has a requirement to address mission capability 
gaps and replace the UH-1N fleet. We are looking at more cost-effective 
strategies to meet the nuclear security and continuity of government 
missions. In the near term, taking ownership of up to 22 Marine Corps 
UH-1Ns aircraft is a low-cost option to mitigate some mission 
capability gaps, and provide attrition reserve aircraft and spares for 
our current UH-1N fleet. Air Force Global Strike Command and Air Force 
Materiel Command are developing a UH-1N roadmap to determine the best 
options for the use of these aircraft. Any expenses required to ready 
the aircraft for Air Force use will be addressed in future budgets.
    Question. General Schwartz, the Air Force announced plans to cut 86 
active-duty airmen from the McEntire Joint National Guard Base in South 
Carolina. At the same time, the Air Force is creating two associations 
by adding 164 active-duty airmen each to two Air Force Reserve F-16 
wings, one in Texas and the other in Florida. My understanding, 
however, is that these Reserve units are less tasked than McEntire 
(e.g., neither maintain an air alert commitment). Further, the McEntire 
active association has proven highly efficient, cost effective, and is 
about to deploy 18 F-16s to Afghanistan. Why would the Air Force weaken 
the McEntire active association but at the same time spend additional 
active-duty resources for less capability at reserve air wings? Does 
this move make fiscal sense at a time when the Air Force's budget, like 
that of the other services, is shrinking?
    Answer. Active duty manpower movements at McIntire Air National 
Guard Base, as well as at Air Force Reserve Command locations in 
Florida and Texas, were part of a larger reallocation of Active Duty F-
16 operation and maintenance manpower across the Total Force. This 
reallocation was initiated at the request of the Air National Guard 
(ANG) resulting in the addition of four new F-16 Guard locations with 
an increase of 37 assigned active-duty billets. Because resources are 
reallocated within existing active-duty end strength, no additional 
cost is incurred. In addition, this action also enables the Air Force 
to convert backup aircraft inventory aircraft at six ANG locations into 
primary aircraft inventory, with the net result being an increase of 18 
primary aircraft inventory at ANG locations. Finally, the reallocation 
of F-16 active associations increases the number of locations at which 
inexperienced Active Duty F-16 pilots and maintainers can be seasoned 
while working with more experienced ANG counterparts. From a Total 
Force perspective, this reallocation of Active Duty F-16 manpower 
improves overall capabilities at no additional cost.
    Question. On March 5, 2012, Defense News reported that the Air 
Force plans to reduce the number of F-35 bases from 40 to the low 30s. 
Since 1991, the ANG has proven its efficiency in utilizing F-16s and F-
15s for Air Expeditionary Forces in Iraq and Afghanistan. The ANG 
currently fulfills 100 percent of the CONUS Air Sovereignty Alert 
mission at substantially lesser costs than the Active component. I 
believe the same would hold true were the ANG equipped with F-35s. The 
Air Force's projected cuts to the ANG in fiscal year 2013 concern me, 
and I remain equally as concerned that the planned reductions in F-35 
bases will disproportionately impact the ANG. What assurances can you 
give me that the reduction in F-35 bases will not disproportionately 
impact ANG units?
    Answer. The Air Force uses an iterative, continually informed 
process for fielding weapon systems intended to optimize mission sets 
and requirements of the total force to meet combatant commander 
requirements. The Air Force is committed to fielding the F-35A 
Lightning II aircraft in the Reserve component, as evidenced by the 
designation of Burlington Air Guard Station, Vermont as the preferred 
alternative for the first operational unit in the Reserve component, 
and fully supports further Reserve component fielding in the future. 
The combination of a collaborative and fully operational total force 
enterprise process, an open and transparent strategic basing process, 
and effective linkages with the planning, programming, budgeting, and 
execution process will provide avenues to balance the Active component 
and Reserve component while prioritizing combatant commander 
requirements. The Air Force is dedicated to using these processes, with 
full Reserve component participation, to refine concepts of concurrent 
and proportional, or balanced, fielding and to ensure fielding of the 
F-35A in the most effective and efficient manner.
    Question. What criteria do you plan to use to determine which bases 
will lose F-35s?
    Answer. There are currently no plans to remove F-35s from any 
existing beddown locations. The Air Force will use its strategic basing 
process to identify which bases receive the F-35A aircraft. Currently, 
the Air Force has only identified the preferred and reasonable 
alternatives for the Formal Training Unit, one Active component 
operational unit, and one Reserve component operational unit. Criteria 
used to determine which bases will receive F-35A aircraft included 
mission, capacity, environmental, and cost categories. Mission included 
weather and airspace components; capacity included facilities, runway, 
and ramp components; environmental considered air quality and 
encroachment; and cost included the area construction cost factor.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
    Question. General Schwartz, I am concerned about the Air Force's 
failure to fulfill its obligation to acquire the F117 Engine technical 
data, and the impact this will have as the Air Force pursues Supply 
Chain Management services.
    What is the Air Force justification for not acquiring the technical 
data rights to the F117 engine, particularly when it is paying an 
approximately 50-percent premium to the commercial variant, which 
includes tech data? Does the Air Force have a plan to acquire such data 
rights?
    Answer. Yes, the Air Force is currently working on acquiring 
technical data rights to the F117 engine. Under the procurement or 
sustainment contracts, the Air Force has never purchased data rights 
for the F117 engine because:
  --under the C-17 contract, Boeing acquired the engines from Pratt & 
        Whitney (P&W) as a commercial item; and
  --under the Air Force contract to acquire engines, the Air Force used 
        a commercial contract.
    P&W paid for the development of these engines. Also, the C-17 
sustainment program included Contractor Logistics Support for life; 
therefore, there was no need to acquire data rights. Since then, the 
Air Force has decided to break out the engine technical overhaul, 
supply chain management and systems engineering from the C-17 support. 
As a result, the Air Force is currently working two separate contract 
actions to acquire licensed use of P&W's technical manual, and to 
acquire the data rights for the System Engineering and Supply Chain 
Management processes for the F117 engine. In December 2011, P&W agreed 
to a General Terms Agreement release of their technical manual for 
basic F117 repairs, and the Air Force will further pursue Government 
Purpose Rights for historical supply chain management and systems 
engineering to enhance future competition.
    Question. General Schwartz, options exist to lower aircraft 
sustainment costs. For example, the commercial industry has embraced 
FAA-approved Parts Manufacturing Approval (PMA) parts and Designated 
Engineering Representative (DER) repairs, but the military has been 
slow to follow.
    Why doesn't the Air Force embrace such commercial best practices? 
Is the Air Force considering using these practices as it contracts for 
Supply Chain Management services for the C-17s F117 engines?
    Answer. The Air Force has embraced commercial best practices. The 
Air Force has recently increased the ability of commercial and 
competitive practices to reduce future F117 engine costs for supply 
chain management (SCM) services. Through discussions with P&W (the 
original equipment manufacturer (OEM) for the F117), in December 2011 
the Air Force secured access to the OEM repair manuals via license 
agreement. This repair manual license agreement can be used for SCM 
competition and for non OEM parts approval.
    The OEM does not have to approve repaired parts; any approved 
repair facility with access to the OEM's repair manuals can overhaul 
and repair F117 engines without subsequent approval through the OEM. 
This will continue to increase competition and decrease the reliance on 
OEM parts which can be used on the F117. This aligns with the 
commercial industry repair practices.
    The Air Force has released a draft performance work statement for a 
new competitive contract that takes advantage of commercial repairs and 
non OEM parts approvals. The Air Force's goal is to leverage Federal 
Aviation Administration's (FAA) PMA and DER approval results as much 
possible. This may accelerate the approval of non-OEM parts. However, 
FAA PMA approval is not sufficient for the F117 due to the F117's 
unique military mission. The FAA approves parts and repairs for only 
commercial application; therefore, the military must retain 
configuration control of the F117 engine.

                          SUBCOMMITTEE RECESS

    Chairman Inouye. The Defense Subcommittee will reconvene on 
Wednesday, March 21, 2012, at 10:30 a.m., to hear from the 
United States Army.
    The subcommittee stands in recess.
    [Whereupon, at 11:33 a.m., Wednesday, March 14, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
